<html>
<title> - OVERSIGHT OF THE NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


    OVERSIGHT OF THE NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION

=======================================================================

                                 HEARING

                               BEFORE THE

           SUBCOMMITTEE ON COMMERCE, MANUFACTURING, AND TRADE

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 14, 2016

                               __________

                           Serial No. 114-133
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
                              ____________
                              
                              
                         U.S. GOVERNMENT PUBLISHING OFFICE
20-613                          WASHINGTON : 2017                                            
_______________________________________________________________________________________                    
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dfb8afb09fbcaaacabb7bab3aff1bcb0b2f1">[email&#160;protected]</a>  
                    
                    
                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
GREG WALDEN, Oregon                  GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
GREGG HARPER, Mississippi            JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    BEN RAY LUJAN, New Mexico
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
MIKE POMPEO, Kansas                  JOHN A. YARMUTH, Kentucky
ADAM KINZINGER, Illinois             YVETTE D. CLARKE, New York
H. MORGAN GRIFFITH, Virginia         DAVID LOEBSACK, Iowa
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILL JOHNSON, Missouri               JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                     Massachusetts
RENEE L. ELLMERS, North Carolina     TONY CARDENAS, California
LARRY BUCSHON, Indiana
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota

           Subcommittee on Commerce, Manufacturing, and Trade

                       MICHAEL C. BURGESS, Texas
                                 Chairman
                                     JANICE D. SCHAKOWSKY, Illinois
LEONARD LANCE, New Jersey              Ranking Member
  Vice Chairman                      YVETTE D. CLARKE, New York
MARSHA BLACKBURN, Tennessee          JOSEPH P. KENNEDY, III, 
GREGG HARPER, Mississippi                Massachusetts
BRETT GUTHRIE, Kentucky              TONY CARDENAS, California
PETE OLSON, Texas                    BOBBY L. RUSH, Illinois
MIKE POMPEO, Kansas                  G.K. BUTTERFIELD, North Carolina
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
GUS M. BILIRAKIS, Florida            FRANK PALLONE, Jr., New Jersey (ex 
SUSAN W. BROOKS, Indiana                 officio)
MARKWAYNE MULLIN, Oklahoma
FRED UPTON, Michigan (ex officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas, opening statement..............................     1
    Prepared statement...........................................     3
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................     4
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     6
    Prepared statement...........................................     7
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, prepared statement........................     8

                               Witnesses

Mark Rosekind, Administrator, National Highway Traffic Safety 
  Administration.................................................    10
    Prepared statement...........................................    12
    Answers to submitted questions...............................   119
Mitch Bainwol, President and CEO, Alliance of Automobile 
  Manufacturers..................................................    38
    Prepared statement...........................................    41
    Answers to submitted questions...............................   139
John Bozzella, President and CEO, Global Automakers..............    49
    Prepared statement...........................................    51
    Answers to submitted questions...............................   145
Michael Wilson, CEO, Automotive Recyclers Association............    58
    Prepared statement...........................................    61
    Answers to submitted questions...............................   149
Jacqueline Gillian, President, Advocates for Highway and Auto 
  Safety.........................................................    69
    Prepared statement...........................................    71
    Answers to submitted questions...............................   159
Ann Wilson, Senior Vice President, Motor and Equipment 
  Manufacturers Association......................................    96
    Prepared statement...........................................    98
    Answers to submitted questions...............................   164

                           Submitted material

Statement of the Rubber Manufacturers Association................   113
Statement of Property Casualty Insurers..........................   115
Letter to the National Automobile Dealers Association............   117

 
    OVERSIGHT OF THE NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION

                              ----------                              


                        THURSDAY, APRIL 14, 2016

                  House of Representatives,
Subcommittee on Commerce, Manufacturing, and Trade,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2123 Rayburn House Office Building, Hon. Michael Burgess 
(chairman of the subcommittee) presiding.
    Members present: Representatives Burgess, Lance, Blackburn, 
Harper, Guthrie, Olson, Kinzinger, Bilirakis, Brooks, Mullin, 
Upton (ex officio), Schakowsky, Clarke, Kennedy, Cardenas, 
Butterfield, and Pallone (ex officio).
    Staff present: Sean Bonyun, Communications Director; 
Leighton Brown, Deputy Press Secretary; Rebecca Card, Assistant 
Press Secretary; Karen Christian, General Counsel; Paige 
Decker, Executive Assistant; Graham Dufault, Counsel, Commerce, 
Manufacturing, and Trade; Melissa Froelich, Counsel, Commerce, 
Manufacturing, and Trade; Giulia Giannangeli, Legislative 
Clerk, Commerce, Manufacturing, and Trade; Jay Gulshen, Staff 
Assistant; Paul Nagle, Chief Counsel, Commerce, Manufacturing, 
and Trade; Dan Schneider, Press Secretary; Olivia Trusty, 
Professional Staff, Commerce, Manufacturing, and Trade; Dylan 
Vorbach, Deputy Press Secretary; Michelle Ash, Minority Chief 
Counsel, Commerce, Manufacturing, and Trade; Jeff Carroll, 
Minority Staff Director; Lisa Goldman, Minority Counsel, 
Commerce, Manufacturing, and Trade; Tiffany Guarascio, Minority 
Deputy Staff Director and Chief Health Advisor; Rick Kessler, 
Minority Senior Advisor and Staff Director, Energy and 
Environment; Caroline Paris-Behr, Minority Policy Analyst; 
Diana Rudd, Minority Legal Fellow; Matt Schumacher, Minority 
Press Assistant; and Andrew Souvall, Minority Director of 
Communications, Outreach and Member Services.

OPENING STATEMENT OF HON. MICHAEL C. BURGESS, A REPRESENTATIVE 
              IN CONGRESS FROM THE STATE OF TEXAS

    Mr. Burgess. I will ask all of our guests to take our seats 
and the subcommittee on Commerce, Manufacturing, and Trade will 
now come to order.
    I will recognize myself for 5 minutes for an opening 
statement.
    Administrator Rosekind, welcome to our hearing this 
morning. It is always good to have you here. We look forward to 
your testimony today. There are a lot of important things that 
we need to discuss, some things that have changed since our 
last visit here, with the passage of the highway bill. But we 
are grateful that you are here today.
    Your administration, the National Highway Traffic Safety 
Administration, was established by Congress in 1970 to reduce 
deaths and injuries from motor vehicle accidents and help make 
our nation's roadways safer. The importance of the agency's 
mission cannot be understated. With 50 million vehicles 
recalled and a surge in traffic fatalities last year, it is 
clear that your work as very real and immediate societal and 
economic implications that affect the lives of virtually every 
American.
    The life-saving nature of NHTSA's mission requires Congress 
and this subcommittee, in particular, to ensure absolute 
compliance with federal motor vehicle safety standards and 
their processes. It also requires us to monitor the agency's 
ability to keep pace with technology, keep pace with 
advancements in automotive systems that promise greater safety 
and mobility. We have seen, over the last few years, failure to 
comply with safety standards or a misunderstanding of a vehicle 
construction design can lead to delays in safety recalls, 
roadway fatalities, and preventable deaths.
    Based on our focus on auto safety, we have included many 
reforms in the safety title for which this subcommittee was 
responsible of the fixing America's Surface Transportation Act 
that was passed by Congress last year and signed into law last 
year. Among those reforms included to the National Highway 
Traffic Safety Administration was to implement the 17 
recommendations issued by the department of Transportation 
Office of Inspector General, following a comprehensive audit of 
the agency's internal processes. Those recommendations are 
intended to improve NHTSA's collection of vehicle safety data 
so that safety defects can be identified earlier and faulty 
cars can be removed from the road faster. The recommendations 
are also intended to help the National Highway Traffic Safety 
Administration keep pace with complex vehicle technology.
    NHTSA has pledged to implement all 17 recommendations by 
June 30th of this year. Following this hearing, I will send a 
request for a full breakdown of your administration's progress 
toward implementing all 17 recommendations.
    The recently passed highway bill also contains a number of 
other measures intended to protect the driving public, 
including improving NHTSA's safety recall processes, increasing 
the availability of vehicle defect information to consumers and 
keeping Congress apprised of the agency's activities through 
the submission of an annual agenda. Each of these reforms work 
together to ensure that the agency remains focused and 
dedicated to its mission of saving lives and that the cars 
American motorists are driving are indeed safe.
    We also must ensure absolute compliance with motor vehicle 
safety standards and processes from vehicle manufacturers, 
suppliers, and new entrants into the automotive industry. Their 
role in advancing vehicle safety and roadway safety is just as 
critical to the goal of reducing traffic fatalities and 
increasing safety for all roadway travelers. To that end, the 
recently passed highway bill contains provisions that 
strengthen, remedy, and repair obligations among automakers for 
vehicles under recall and requires greater accountability from 
dealers and rental car companies to ensure that consumers 
driving away from those lots are driving safe cars.
    In addition to the implementation of the FAST Act, there is 
much more to consider today. And I certainly do look forward to 
discussing the status of the ongoing Takata airbag recall.
    Back home in Texas, there was another tragic fatality tied 
to these airbags. The National Highway Traffic Safety 
Administration established a coordinated remedy program in 2015 
to accelerate the replacement of defective Takata airbag 
inflators. Despite this program, the take rate, or the 
percentage of people issued a recall that take their vehicle in 
for servicing remains low.
    Always, I commit to you that we will do whatever possible 
for the public service campaign to make sure this word gets out 
to consumers.
    I hope to hear about your coordinated remedy program and 
what additional action NHTSA is planning to solve this problem. 
I also look forward to discussing how the agency is working 
with automakers to protect vehicles from cyber threats and how 
the agency is preparing for the industry's future of crash 
avoidance technology, vehicle-to-vehicle communications, 
autonomous cars and beyond.
    We provided for a significant increase in resources for the 
National Highway Traffic Safety Administration in the recently 
passed highway bill. Some of those are contingent upon meeting 
some of the performance metrics set forward in the OIG report.
    And then finally I would just like to say that you have 
been good about coming when we asked. You have been good about 
being straightforward with us in your answers. And for that, I 
am very appreciative. It just goes without saying everyone 
should know where their vehicle identification number is 
located on their car, lower left-hand of the windshield, 
driver's side doorpost, and that vehicle number can be entered 
into your database, safercar.gov, safe with an R car.gov and 
find out if their vehicle has been subject to a recall. It is 
important information. Our subcommittee vice chair actually had 
two recalls on his vehicle and it was delineated that way. So, 
I encourage people to check the car of yourself, for your loved 
one, or your child, someone for whom you are responsible 
because it is the responsible thing to do.
    [The prepared statement of Mr. Burgess follows:]

             Prepared statement of Hon. Michael C. Burgess

    The National Highway Traffic Safety Administration was 
established by Congress in 1970 to reduce deaths and injuries 
from motor vehicle accidents and to help make our nation's 
roadways safer. The importance of the agency's mission cannot 
be understated. With over 50 million vehicles recalled and a 
surge in traffic fatalities last year, it's clear that the work 
of the National Highway Traffic Safety Administration has very 
real and immediate societal and economic implications that 
affect the lives of virtually every American.
    The life-saving nature of NHTSA's mission requires Congress 
and this Subcommittee in particular, to ensure absolute 
compliance with federal motor vehicle safety standards and 
processes. It also requires us to monitor the agency's ability 
to keep pace with technology advancements in automotive systems 
that promise greater safety and mobility. As we've seen over 
the last few years, a failure to comply with safety standards 
or a misunderstanding of vehicle construction and design leads 
to delays in safety recalls, roadway fatalities and other 
preventable incidents.
    Based on our focus on auto safety, we included many reforms 
in the safety title of the Fixing America's Surface 
Transportation Act that was passed by Congress and signed into 
law last year. Among those reforms included direction to NHTSA 
to implement 17 recommendations issued by the Department of 
Transportation Office of Inspector General following a 
comprehensive audit of the agency's internal processes. Those 
recommendations are intended to improve NHTSA's collection of 
vehicle safety data so that safety defects can be identified 
earlier and faulty cars can be removed from the road faster. 
The recommendations are also intended to help NHTSA keep pace 
with complex vehicle technology and rapidly advancing 
automotive systems. NHTSA has pledged to implement all 17 
recommendations by June 30th of this year. Following this 
hearing, I will send a request for a full breakdown of NHTSA's 
progress toward implementing all 17 recommendations.
    The FAST Act contains a number of other measures intended 
to protect the driving public, including: improving NHTSA's 
safety recall processes, increasing the availability of vehicle 
defect information to consumers, and keeping Congress apprised 
of the agency's activities through the submission of an annual 
agenda. Each of these reforms work together to ensure that the 
agency remains focused and dedicated to its mission of saving 
lives, and that the cars American motorists are driving are 
safe.
    We also must ensure absolute compliance with motor vehicle 
safety standards and processes from vehicle manufacturers, 
suppliers, and new entrants into the automotive industry. Their 
role in advancing vehicle and roadway safety is just as 
critical to the goal of reducing traffic fatalities and 
increasing safety for all roadway travelers. To that end, the 
FAST Act contains provisions that strengthen remedy and repair 
obligations among automakers for vehicles under recall, and 
requires greater accountability from dealers and rental car 
companies to ensure that consumers driving away from those lots 
are in safe cars.
    In addition to the implementation of the FAST Act, there is 
much more to consider today. I look forward to discussing the 
status of the ongoing Takata recalls. In my home state of Texas 
there was another tragic fatality tied to the Takata airbags. 
NHTSA established a coordinated remedy program in 2015 to 
accelerate the replacement of defective Takata airbag 
inflators. Despite this program, the take rate, or percentage 
of people issued a recall that take their vehicle in for 
servicing, remains low. Is it time for NHTSA to do a Public 
Service campaign? I hope to hear about the coordinated remedy 
program and what additional action NHTSA is planning to solve 
this problem without further delay.
    I also look forward to discussing how the agency is working 
with automakers to protect vehicles from cyber threats, and how 
the agency is preparing for the industry's future of crash-
avoidance technology, vehicle-to-vehicle communications, 
autonomous cars, and beyond. We provided for a significant 
increase in resources for NHTSA in the FAST Act.
    With so much on the table, I hope to hear how NHTSA is 
maximizing the use of these resources. We provided a 
significant increase in the FAST Act. I have no doubt that 
NHTSA would like more funds. But funds are scarce and 
practically speaking I am not sure how much more funding 
Congress can realistically find.
    Administrator Rosekind, we welcome you to today's hearing 
and I look forward to continuing to work with you to make 
vehicles and roadways safer for our nation's motorists.

    Mr. Burgess. And I will yield to the ranking member of the 
subcommittee, Ms. Schakowsky from Illinois for an opening 
statement, 5 minutes, please.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Thank you, Mr. Chairman and I appreciate 
that really important public service announcement. Seriously, 
we need to encourage our constituents and our American citizens 
to do just that.
    So, I look forward to hearing today how NHTSA is addressing 
ongoing and emerging safety challenges. Last summer, I know you 
Administrator Rosekind were here to testify on the Takata 
airbag recalls. The fallout from these defective airbags 
continues, as we know. Toyota announced the recall of another 
60,000 vehicles this morning. So, these recalls keep on coming.
    Just last week it was a 17-year-old in Texas when her 
airbag ruptured during a low-speed accident. And consumers are 
rightly concerned by the expanding class of vehicles impacted 
by this and other defects that drove 2015 to be a record-
setting year for auto recalls.
    In 2015, traffic fatalities also increased by nine percent, 
reversing years of progress. And we just can't have another 
year like 2015.
    NHTSA has made progress in some important areas. For 
instance, under a new rule, heavy vehicles will be required to 
have electronic stability control. At the same time, I would 
like to see more progress in other areas, such as rear seat 
belt reminders. As we work to improve safety, strong 
enforceable standards are vital and that is why I am concerned 
about reliance on non-specific voluntary standards.
    The Proactive Safety Principles released earlier this year 
set out some broad areas for improvement and I agree that the 
industry and NHTSA should be more proactive in improving 
safety, examining early warning, reporting data, increasing 
recall participation and enhancing cybersecurity but I worry 
that progress in these areas will be limited if we don't have 
enforceable standards. The lives of drivers, passengers, and 
those sharing the road are too important to rely on broad 
principles.
    We need to ramp up our approach to safety. I, along with 
ranking member of the full committee, Mr. Pallone, and several 
members of the subcommittee have introduced the Vehicle Safety 
Improvement Act and our bill would increase penalties for 
violations of safety standards, double NHTSA's safety funding, 
ensure the public is properly notified of safety problems, and 
enable NHTSA to better respond when recalls are necessary.
    Last year, Congress considered a surface transportation 
bill. And while I am glad that we finally did pass a long-term 
transportation bill on safety, this bill, I think, was largely 
a missed opportunity but we can fix that. Bills like VSIA are 
what the subcommittee would be advancing if we want to make 
meaningful progress toward reducing vehicle deaths in addition 
to current safety challenges, NHTSA and the subcommittee must 
think about the next generation of vehicles, vehicle-to-vehicle 
technology and automated driving, have the potential to improve 
highway safety but there is a lot to test and figure out.
    And let me just say that consumer privacy and strong 
security need to be built in to these technologies from the 
get-go. And NHTSA needs to be provided sufficient resources to 
adequately review these technologies before mass deployment.
    That gets to a broader point. NHTSA needs adequate funding 
if we want adequate safety. We get the government that we pay 
for. And when our consumer watchdogs don't have enough 
resources, we shouldn't be surprised when they don't keep pace 
with our safety needs. We need strong standards coupled with 
the resources to develop and enforce them. And without that, we 
aren't going to make the progress that we need.
    I welcome our witnesses. I look forward to your testimony.
    And I yield back, unless someone wants almost a minute. And 
I yield back.
    Mr. Burgess. The chair thanks the gentlelady. The 
gentlelady yields back.
    The chair recognizes the chair of the full committee, Mr. 
Upton, 5 minutes for an opening statement.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Thank you, Mr. Chairman.
    Auto safety, it is a matter of life and death. Yes, it is. 
There are not a lot issues as important as keeping Americans 
safe on the road. Oversight of NHTSA is an essential part of 
this subcommittee's work in protecting drivers across Michigan 
and across the country. And with over 250 million vehicles on 
the road transporting American families every day, today's 
oversight hearing offers an important opportunity to evaluate 
NHTSA's efforts in fulfilling its core mission of reducing 
traffic fatalities and making sure that our nation's roadways 
and vehicles are indeed safe.
    In the past couple years we have seen NHTSA face many 
challenges. The agency has struggled to collect and take action 
on meaningful vehicle safety data and major recalls have come 
sometimes way too late and often with an unclear message on how 
to fix the problem. We are sadly all too familiar with the 
tragic consequence of safety failures.
    The Fixing America's Surface Transportation Act, signed 
into law last year, included numerous reforms sponsored by 
members of this subcommittee to address some of those 
challenges and improve accountability, transparency, and 
efficiency at the agency. And I thank Chairman Burgess for his 
leadership in that effort, and I look forward to discussing the 
implementation progress of these reforms with the Administrator 
today.
    I would note that while the FAST Act represents a positive 
step forward in improving auto safety practices within NHTSA 
and across the auto industry at large, there is still more that 
can do, and should do. With low recall completion rates, the 
ongoing Takata recalls, and cybersecurity issues, other reforms 
and initiatives have to be considered to prevent further 
tragedies. One problem that we have seen repeatedly is an 
agency struggling to keep pace with next-generation automotive 
technologies. Being from the auto state, I understand how 
innovation and technological advances developed by the auto 
industry are introducing greater complexities into today's 
vehicles. It is tougher. It is.
    However, it is NHTSA's responsibility and obligation to 
stay on top of these developments and protect the driving 
public. Part of the problem is a lack of good testing and 
research facilities for connected and autonomous vehicles. 
Facilities like Michigan's American Center for Mobility at 
Willow Run are critical to policymakers' preparation and 
understanding of these advanced technologies, with faster 
consumer adoption. Until we have an accident-and-defect-free 
vehicle and roadway system, we can never put too much emphasis 
on safety. And you can't have safety without testing. I want to 
explore how we can move forward with critical testing 
facilities like Willow Run which can secure America's continued 
leadership in advanced automotive technologies but also protect 
American families on the road.
    The automotive industry is vital to Michigan's economy, as 
well as the country's. It drives innovation, job creation, 
productivity, and economic advancement. Robust auto safety is 
fundamental to that progress. We have to continue to work 
together to enhance vehicle and roadway safety for our nation's 
motorists.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    Auto safety--it's a matter of life and death. There are not 
many issues as important as keeping Americans safe on the road. 
Oversight of the National Highway Traffic Safety Administration 
is an essential part of this subcommittee's work in protecting 
drivers across Michigan and the United States. With over 250 
million vehicles on the road transporting American families 
everyday, today's oversight hearing offers an important 
opportunity to evaluate NHTSA's efforts in fulfilling its core 
mission of reducing traffic fatalities and making sure our 
nation's roadways and vehicles are safe.
    In the past few years we've seen NHTSA face many 
challenges. The agency has struggled to collect and take action 
on meaningful vehicle safety data, and major recalls have come 
too late and often with an unclear message on how to fix the 
problem. We are sadly all too familiar with the tragic 
consequences of safety failures.
    The Fixing America's Surface Transportation Act, signed 
into law last year, included numerous reforms sponsored by 
members of this subcommittee to address some of those 
challenges and improve accountability, transparency, and 
efficiency at the agency. I thank Chairman Burgess for his 
leadership in that effort, and I look forward to discussing the 
implementation progress of those reforms with Administrator 
Rosekind today.
    I should note that while the FAST Act represents a positive 
step forward in improving auto safety practices within NHTSA 
and across the auto industry at large, there is still much more 
that can, and should, be done. With low recall completion 
rates, the ongoing Takata recalls, and cyber security issues, 
other reforms and initiatives must be considered to prevent 
further tragedies.
    One problem we have seen repeatedly is an agency struggling 
to keep pace with next-generation automotive technologies. 
Being from the auto state, I understand how innovation and 
technological advancements developed by the auto industry are 
introducing greater complexities into today's vehicles. 
However, it's NHTSA's responsibility and obligation to stay on 
top of those developments and protect the driving public.
    Part of the problem is a lack of good testing and research 
facilities for connected and autonomous vehicles. Facilities 
like Michigan's American Center for Mobility at Willow Run are 
critical to policymakers' preparation and understanding of 
these advanced technologies, and faster consumer adoption. 
Until we have an accident- and- defect-free vehicle and roadway 
system, we can never put too much emphasis on safety. And you 
can't have safety without testing. I want to explore how we can 
move forward with critical testing facilities like Willow Run 
which will both secure America's continued leadership in 
advanced automotive technologies but also protect American 
families on the road.
    The automotive industry is vital to Michigan's economy, as 
well as the nation's. It drives innovation, job creation, 
productivity, and economic advancement. Robust auto safety is 
fundamental to that progress. We must all continue working 
together to enhance vehicle and roadway safety for our nation's 
motorists.

    Mr. Upton. And I yield the balance of my time to the vice-
chair of the committee, Marsha Blackburn.
    Mrs. Blackburn. Thank you, Mr. Chairman. And we welcome 
you. We are delighted to have you here before us today.
    The chairman mentioned safety. It is of prime importance 
for us. We know that government can't guarantee 100 percent 
safety but we know it is a goal we all should be striving 
toward and we appreciate your willingness to work with us on 
safer vehicles and a safer environment for those.
    Chairman Burgess mentioned the Takata airbag hearing and we 
look forward to an update on that. We are continuing to look at 
that and to hear about this issue.
    The driverless cars, the vehicle-to-vehicle communication, 
I am hearing more about that and the automatic breaking 
systems. We know that these are items that have the potential 
for saving lives but we want to make certain that those 
communications are secure, that they are not going to be able 
to be compromised by malevolent actors. We are concerned about 
the hackings into these vehicles. So, we want to visit those 
issues with you.
    Chairman Upton mentioned the importance of the auto 
industry to Michigan, likewise in Tennessee with GM and Nissan, 
and Toyota. My constituents are concerned about the decisions 
that you make, the actions that you take, and we welcome you to 
the committee again and I yield back.
    Mr. Burgess. The chair thanks the gentlelady. The 
gentlelady yields back.
    The chair recognizes the ranking member of the full 
committee, Mr. Pallone from New Jersey, 5 minutes for an 
opening statement, please.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Chairman, for calling this hearing 
so that we can discuss NHTSA's critical mission of making our 
roads safer and how Congress can best support that mission. It 
is an exciting time in the automotive world right now from 
vehicle-to-vehicle communication, to self-parking cars, to 
automatic braking. It seems we are in the midst of a major 
technological shift in the way we drive our cars. And while 
some may want to focus this hearing on the future of the 
automobile and I do want to hear that NHTSA and industry have 
the tools and skills necessary to deal with the ever-changing 
landscape, but we must address the deficiencies that already 
are plaguing this industry.
    Over the last several years, we have seen massive and 
highly publicized recalls for general motors ignition switches, 
Takata airbags, and Toyota unintended acceleration. 
Unfortunately, 2015 was another record-setting year for auto 
recalls which erodes the public trust and the underlying 
defects put people in danger.
    Just last night, we learned that yet another death had been 
linked to a faulty Takata airbag. And while some recalls may 
always occur, industry must take responsibility for its own 
failures and do more to prevent safety deficiencies from 
putting the public at risk. NHTSA also must stay ahead of the 
curve on safety and that starts with having the willingness and 
conviction to effect real change, both within NHTSA and 
throughout the industry.
    Last year was not only a record-setting year on recalls, we 
also, unfortunately, saw a rise in traffic fatalities. 
According to NHTSA projections, deaths increased 9.3 percent to 
26,000 people in the first 9 months of 2015, compared with the 
same period in 2014. There was also a 30 percent rise in 
serious injuries in the first half of 2015, compared with the 
first half of 2014, up to nearly 2.3 million serious injuries.
    In January, the Department of Transportation announced an 
agreement on safety principles between NHTSA and 18 major auto 
manufacturers. While the agreement covers broad areas of auto 
safety, it is severely lacking in meaningful details. It is 
nothing more than an agreement to try to agree in the future. 
And I also have serious reservations about the closed door 
process by which this agreement was drafted and finalized and 
it concerns me that it lacks an enforcement mechanism to ensure 
that auto makers follow through on their commitments, as vague 
as they may be.
    In the wake of an auto emissions scandal, a climbing recall 
rate, and rising traffic fatalities, now is the time for 
greater accountability, greater transparency, and better 
communication between automakers and the agency charged with 
regulating them, as well as the public, not just a set of 
voluntary principles.
     Last year, Congress passed a transportation funding bill, 
the FAST Act. That legislation was a missed opportunity to 
address accountability, transparency, and communications. It 
also should have dealt with used car safety, speeding up the 
recall process, and eliminating regional recalls, among other 
things.
    The Vehicle Safety Improvement Act of 2015, a bill that 
Ranking Member Schakowsky mentioned and that I co-sponsored 
last year, would make those changes and a lot more. Our bill is 
a starting point to make sure that the millions of drivers and 
passengers on our roads are kept safe.
    This year is the 50th anniversary of the National Traffic 
and Motor Vehicle Safety Act of 1966, the law that created 
NHTSA with its mission of reducing deaths, injuries, and 
economic losses resulting from motor vehicle crashes. The Auto 
Alliance has stated that fatalities, as a share of miles 
traveled, are down 80 percent since the law's passage but we 
need to continue that legacy and not move backwards. We are on 
our way towards incredible advances in the automotive space but 
we need to ensure that consumers get there safely.
    And I look forward to continuing our discussion about how 
best to move forward on auto safety. Thank you, Mr. Chairman.
    Mr. Burgess. The chair thanks the gentleman. The gentleman 
yields back.
    And that concludes members' opening statements. And the 
chair would like to remind members that, pursuant to committee 
rules, all members' opening statements will be made part of the 
record.
    And again, thanks to all of our witnesses on both panels 
for being here today and taking the time to testify before the 
subcommittee. We will have two panels. Each panel of witnesses 
will have an opportunity to give an opening statement, followed 
by questions from the members.
    Once we conclude the questions on the first panel, there 
will be a brief, underscore brief, recess to set up for the 
second panel.
    And our witness panel for today's panel includes, on the 
first panel, Dr. Mark Rosekind, the Administrator of the 
National Highway Traffic Safety Administration. And Mr. 
Rosekind, again, thank you. We appreciate your being here 
today. We appreciate your willingness to be available to 
members of the subcommittee. We appreciate your making 
available coming to your facility and looking to see what you 
and your fine folks do on a daily basis. You are now recognized 
for 5 minutes for an opening statement.

STATEMENT OF MR. MARK ROSEKIND, ADMINISTRATOR, NATIONAL HIGHWAY 
                 TRAFFIC SAFETY ADMINISTRATION

    Mr. Rosekind. Chairman Burgess, Ranking Member Schakowsky, 
members of the committee, thank you for the opportunity to 
update you on the National Highway Traffic Safety 
Administration's efforts to save lives, prevent crashes, and 
reduce the economic toll of fatalities on our roads.
    The last year was one of the most eventful in NHTSA's 5-
decade history and this year promises to be just as 
significant.
    In road safety, we face a large and tragically growing 
challenge. We lost 32,675 on American roads in 2014. And as you 
have all cited, our early estimates show that traffic 
fatalities appear to have grown up by 9 percent in 2015. I 
believe that the only acceptable goal is zero traffic deaths. 
Every American should be able to drive, ride, or walk to their 
destination safely every time. That is the goal that drives our 
work.
    Earlier this year, Secretary Foxx announced the President's 
proposed $1.2 billion budget for NHTSA that includes important 
investment in NHTSA's behavioral safety efforts and for 
accelerating safety technologies, such as vehicle automation. 
This funding will further support our efforts to build on the 
progress we have already made in revamping our defects 
investigations program. I strongly urge your support for the 
President's budget proposal.
    I am going to begin with a topic that receives far less 
public attention than it is due--human behavior on the roads. A 
human choice or error is responsible for 94 percent of all 
crashes. Through decades of success, we know there are highly 
effective methods to combat these unsafe behaviors but we also 
know that simply doing more of the same will not get the job 
done.
    In a series of 1-day traffic safety summits across the 
country this year, we challenge stakeholders to develop new 
ideas and innovative approaches to make our roads safer. Those 
efforts will continue as we develop short- and long-term 
strategies to eliminate traffic fatalities. NHTSA is also 
continuing to act on multiple fronts to raise the level of 
safety in the vehicles that are already on our roads. Through 
regulation, NHTSA has issued a final rule requiring electronic 
stability control on heavy vehicles and proposed rules to 
protect consumers from unsafe novelty motorcycle helmets and to 
upgrade rear impact guards on trucks and trailers. We are also 
working on a rule to require the installation of speed limiters 
on heavy vehicles and a rule on vehicle-to-vehicle 
communications, a technology that could prevent tens of 
thousands of crashes every year.
    NHTSA is also leading on vehicle safety beyond the 
regulatory process. Last month, we joined auto manufacturers to 
announce a historic commitment to put automatic emergency 
braking in more than 99 percent of all new cars by 2022. This 
agreement will make this technology standard 3 years faster 
than if the agency had tried to achieve the same goal only 
through the regulatory process, preventing thousands of crashes 
and saving lives.
    Our proposed update to the 5 star safety ratings program 
will put more information about vehicle safety in the hands of 
car buyers. The updates add tougher crash tests, will for the 
first time rate vehicles on crash avoidance and will rate 
vehicles in how well they prevent and mitigate the harm of 
pedestrian impacts.
    NHTSA is leaning forward on autonomous vehicle technology. 
This year, we will offer manufacturer operational deployment 
guidance that outlines how autonomous vehicles should perform 
on the roads. We will work with partners to provide model state 
policy and we will identify new tools and authorities that 
NHTSA may need so that we can be sure we meet our goal of 
encouraging safe innovation.
    While we look to the future, we must also maintain our 
focus on safety today. In 2015, NHTSA initiated a record-
setting nearly 900 recall campaigns affecting about 51 million 
vehicles and we also imposed record-setting penalties.
    NHTSA has launched an unprecedented effort to coordinate 
and accelerate the Takata recalls currently totaling 28.8 
million airbag inflators. Our coordinated remedy program issued 
to Takata and the affected automakers accelerated the recall 
remedy process by 2 years or more. This is, perhaps, the most 
aggressive use of the agency's enforcement authority in its 
history.
    While identifying defects and recalling vehicles is an 
important safety mission, we would prefer to avoid the problems 
in the first place. In January, Secretary Foxx announced an 
historic agreement with 18 auto manufacturers on a series of 
concrete commitments to safety, including targeting 100 percent 
remedy completion rates. This agreement could change the safety 
conversation from reactive to proactive, helping us catch 
issues sooner or prevent them from happening at all.
    We were recently, and you have all mentioned this, 
tragically reminded just how urgent this work is. Two weeks ago 
today, a 17-year-old driver lost her life after the Takata 
airbag inflator in her car ruptured after a crash near Houston. 
The local sheriff said that if it weren't for the rupture, she 
would have been able to walk away from that crash. The inflator 
in her vehicle had already been recalled but the repair had not 
been completed. We all play a role in making sure another 
tragedy like this just doesn't happen again.
    We are going to hear NHTSA talk a lot in the next year 
about proactive safety, about the need for all of us with a 
role in protecting the public to make safety our highest 
priority. Doing so will require new ways of thinking for NHTSA, 
for automakers and suppliers, for dealers, for safety 
advocates, and for the public.
    I appreciate the opportunity to testify and I am pleased to 
answer your questions.
    [The statement by Mr. Rosekind follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Burgess. The chair thanks the gentleman for the 
testimony.
    I will begin by recognizing myself for 5 minutes for 
questions. Again, I appreciate your being here today.
    Can you tell us, since this last incident was so recent, 
and I don't know that I have seen any sort of official write-up 
of what occurred, but the airbag unit in question was under 
recall but what was the difficulty in getting the recall 
information to the end user?
    Mr. Rosekind. Specific to that case, that was a 2011 recall 
actually for a different manufacturing defect. The manufacturer 
reported sending at least six notices to the family. The family 
reports not receiving any of them and so that is being 
investigated right now.
    Mr. Burgess. Well, it certainly seems like we have 
uncovered a weak spot in what should be the vehicle 
notification and the user getting back to get the problem taken 
care of.
    Is this a problem because this was a second or third owner 
or was this the original owner of the car?
    Mr. Rosekind. We believe it was a used vehicle. So, 
multiple owners of the vehicle. And you have hit on it, which 
is as much as currently being done to notify people, it is not 
enough. And so we have been working with the automakers, we 
have had our own programs. We have just established with the 
independent monitor 19 new strategies, more robust ones for the 
automakers in Takata to go after informing people that they are 
available.
    We have our own, about a dozen activities that are going on 
with NHTSA, including a new national campaign, safe cars save 
lives, many different things. In spite of those, what we know 
is it has not been enough.
    I do want to thank you because every time you have been so 
good about mentioning safercar.gov. And I will just say in the 
last fatality, we saw a spike from 50,000 to 175,000 checks of 
peoples' VIN numbers. So, we know that every time we make 
people aware, they pay attention and that has the opportunity 
to save more lives. I thank you. You have been so good about 
doing that.
    Mr. Burgess. Well, let me ask you a question, because I 
think it was actually in this recently passed highway bill that 
we did about a pilot program for state notification to 
consumers. In the State of Texas every year I have got to take 
my car somewhere and the guy checks the turn signal. And I am 
happy to comply with it because then I can drive my car for 
another year without getting a traffic ticket. Is there any way 
to add the compliance with recalls at the state level as part 
of the armamentarium of things that they check, along with 
pollution and turn signals and tire wear? Is it possible to add 
this information as well?
    Mr. Rosekind. Yes and thank you for the FAST Act because 
this is just one example of one of the elements that could help 
promote better recalls. What you are identifying is a pilot 
program. Right now there is no procedure. There is no 
technology or funding, basically, to figure out how to go and 
do this. When you get your car registered, there is no way to 
notify people.
    So, what is great about the pilot program, up to six states 
can work with us to figure out what the procedures need to be, 
what technology needs to be in place, and basically how the 
procedures are going to go to make sure that that happens 
correctly.
    And just to give you a feel, our VIN lookup is for 
consumers, one person at a time. Here, we have already started 
interacting with states and with the DMVs. You are looking at 
hundreds of thousands of look ups potentially daily to get that 
work done. We have to figure out how to do it. It could be a 
great touch point to inform people.
    Mr. Burgess. Somehow, when you make it important to people, 
it can involve money and, instead of making it punitive, if 
there was a proactive way, and this of course is probably a 
question I need to ask the manufacturers, actually an incentive 
program to comply with a vehicle safety recall if one has been 
identified. And I could encourage, if there are any 
manufacturers who are listening today to consider that approach 
as well.
    I have got to ask you this because a little known fact, 
because I am also chair of the motorcycle caucus and you 
mentioned novelty motorcycle helmet problems. Can you tell me 
what the problem is there? I was not aware of that.
    Mr. Rosekind. There is a group of manufacturers that put 
out a novelty helmet that does not meet the standard. And so 
basically, people put the helmet on thinking that they are 
protecting themselves and it does not.
    Mr. Burgess. And these are sold as motorcycle helmets?
    Mr. Rosekind. Absolutely. And so if you didn't know what 
you were buying and you just thought it looked different and 
cool, thinking you were getting the same protection, you would 
not be.
    Mr. Burgess. Is there a requirement that a motorcycle 
helmet be placard? Would there be any way for a consumer to 
know this is a NHTSA-approved, or a safety-approved device they 
have purchased?
    Mr. Rosekind. And there is a DOT label so that you would 
know that it is correct. But these are manufactured and put out 
there in certain places and so we are acting to try and take 
care of that.
    Mr. Burgess. But no label would be affixed to those. It is 
not that there is a counterfeit label, there is no label.
    Mr. Rosekind. It is different, depending on how people are 
producing them. Most often, there is no label. And if people 
don't know that they should be looking for that, they just 
think it is a helmet that probably should be protecting them.
    Mr. Burgess. All right. Well, full-service subcommittee, I 
learned something new today and I hope our motorcycle public is 
paying attention and will only buy official helmets.
    I recognize the ranking member of the subcommittee, 5 
minutes for questions, please.
    Ms. Schakowsky. Thank you, Mr. Chairman and thank you, Dr. 
Rosekind.
    The massive ongoing recalls of Takata airbags have remained 
a huge and complicated problem. And as was mentioned just 
yesterday, NHTSA announced that 85 million more Takata airbags 
could be recalled, unless Takata can prove that they are safe.
    Dr. Rosekind, questions about Takata inflators are endless. 
For example, consumers want to know how we can get accurate 
information to better understand which inflators are going into 
what cars. And recently, NHTSA stated that if a car company 
cannot meet the requirement to acquire a sufficient supply of 
remedy parts, the company should continue its ``like for like'' 
replacing older defective airbags with newer but identical 
bags.
    So, my questions are these. Does that mean that the company 
will be putting a potentially defective airbag into a car with 
the hope that it is better just because it is newer? And is the 
consumer told this important information at the time that the 
airbag is replaced?
    Mr. Rosekind. So, I need to begin by making sure everybody 
understand since their inception, 42,000 lives have been saved 
by airbags. That is the difficulty of this situation. A piece 
of safety equipment is putting people at risk.
    So, what is now known, based on testing, is there are at 
least five different factors that create the risk about a 
rupture that has to do with temperature, moisture, time, the 
driver versus passenger side, and whether it has desiccant or 
not, which is a moisture-absorbing additive that can be placed 
in there.
    So, one of the issues that you are talking about is that, 
at this point, we are only seeing ruptures at 7 \1/2\ years. 
And that is with all the other risk factors involved as well.
    So, what you are talking about is right now with supplies, 
there are a certain number that are being replaced that have at 
least a 7 \1/2\ year timespan available for that safety to 
protect people in the vehicle.
    Ms. Schakowsky. So, is the consumer promised a later date 
to come in and get a permanent remedy?
    Mr. Rosekind. Absolutely. And you are hitting, in fact, 
when we announced this recall, the hardest part, frankly, is 
you have hit on one of the most difficult things, is you are 
talking about people potentially having to come twice. Because 
what you are describing is an interim remedy that will provide 
more safety but they are going to have to come back for a 
second time. This is why we have emphasized the 100 percent 
because you don't want people to get that first one and think 
they are done.
    Ms. Schakowsky. Right. There are news reports that indicate 
that companies other than Takata are making replacement 
airbags. And are those suppliers making the inflators to the 
old specifications or the new ones? And are these companies 
required to make the inflators without ammonium nitrate?
    Mr. Rosekind. There are three other manufacturers, Autoliv, 
Daicel, and TRW. They now produce about 70 percent of the 
inflators that are being currently produced for replacement. 
None of them use ammonium nitrate.
    Ms. Schakowsky. OK.
    Mr. Rosekind. None of them have had any safety problems 
identified.
    Ms. Schakowsky. And how does a consumer know if her car's 
replacement airbag is a replica of the airbag that it was made 
to replace and similarly, how does the consumer know whether 
the new airbag she got in the last 2 years needs to be 
replaced? And finally, how does she know whether the new one 
contains ammonium nitrate-based propellants?
    Mr. Rosekind. The simplest thing would be to go to 
safercar.gov, do the VIN lookup, see whether or not your 
vehicle is under a recall. If you go in and a dealer tells you 
that it is the interim remedy, then you would know that you are 
going to have to be called back again for that second fix.
    Ms. Schakowsky. Safercar.gov.
    I am troubled by the report that some auto manufacturers 
may still be selling new vehicles with potentially defective 
Takata inflators. What is NHTSA doing to ensure that all new 
cars are free of these airbags?
    Mr. Rosekind. Well, it would be illegal to sell a known 
defect in a new car. So, if you are aware of anything, let us 
know because that is something we would go and investigate. So, 
there should be no vehicles. Again, there are some that are 
getting like for like. Right now the recalls, I think, go back 
to 2014 but all those are being tracked because of that 7 \1/2\ 
year rupture timeline.
    Ms. Schakowsky. So you are unaware of any reports that some 
auto manufacturers are doing that. Is that what you were 
saying? You said I should inform you but have you heard that as 
well?
    Mr. Rosekind. Right.
    Ms. Schakowsky. No, you have not.
    Mr. Rosekind. Unless it is something we know about, 
because, again, there are some that haven't been recalled 
because of the time.
    Ms. Schakowsky. OK.
    Mr. Rosekind. But otherwise, we are not aware of any.
    Ms. Schakowsky. OK, thank you and I yield back.
    Mr. Burgess. The gentlelady yields back. The chair thanks 
the gentlelady. The chair recognizes the gentleman from 
Illinois, Mr. Kinzinger, 5 minutes for questions, please.
    Mr. Kinzinger. Thank you, Mr. Chairman.
    And sir, thank you for being here and thank you for serving 
the country in your capacity.
    Chairman, thanks for holding this hearing for us to 
continue our committee's oversight of NHTSA and the review of 
related safety issues within the automotive industry.
    I would especially like to thank the chairman and committee 
for their support and work to include my amendment in the FAST 
Act. I believe it takes an important step forward to improve 
vehicle safety by requiring automakers to provide more 
information about defective components or parts involved in 
safety recalls. Sharing defective part numbers and other 
identifiable information with recyclers will improve safety and 
aid NHTSA in its goal to improve recall completion rates.
    Sir, Section 24(11)(6) of the FAST Act requires automakers 
to furnish additional information in their 575 reports, such as 
the name of the component, a description of the component and 
the part number. Do you have any information what is the status 
of implementation of this section?
    Mr. Rosekind. Yes, an important component, if you will, of 
that Act. And so name, description, and part number already 
underway to include that according to what is in the FAST Act.
    Mr. Kinzinger. OK and do you know, does it require a 
rulemaking?
    Mr. Rosekind. Yes.
    Mr. Kinzinger. All right. And as NHTSA reached out to 
stakeholders, such as the Automotive Recyclers Association for 
technical assistance and input on implementing this section?
    Mr. Rosekind. And they have been very forthcoming. They 
have already come to meet with us to help us be more explicit 
about what needs to get done.
    Mr. Kinzinger. Good. And you feel like that is a good 
relationship?
    Mr. Rosekind. Very productive interactions.
    Mr. Kinzinger. OK, great. Has any information been received 
from the OEMs under this section of the new law?
    Mr. Rosekind. Any?
    Mr. Kinzinger. Any new information? Any information been 
received from them under this?
    Mr. Rosekind. We are still in the produce it phase.
    Mr. Kinzinger. OK.
    Mr. Rosekind. But we will interact with them as well to 
make sure that what we produce is something they can fulfill.
    Mr. Kinzinger. And do you have any idea like kind of the 
timeline on this right now?
    Mr. Rosekind. I mean tell you for sure we will meet the 
FAST Act requirement.
    Mr. Kinzinger. OK. And then how will the information 
supplied through this section of the law be available to the 
public or the stakeholders? I mean ideally, are you going to 
have it like a static PDF form, electronic database? Is there 
anything that you foresee?
    Mr. Rosekind. Well and that is the part that is trying to 
be figured out.
    Mr. Kinzinger. OK.
    Mr. Rosekind. And that is not just with the recyclers. But 
again, the form that we asked the OEMs to provide that 
information obviously can facilitate how we can make that 
information available. That is the part that is being worked on 
now.
    Mr. Kinzinger. OK, good. Well, I appreciate you all working 
on it. My office will continue to ensure that everything is 
going correctly and appreciate your service.
    Mr. Chairman, that is all I have for this witness. I 
appreciate it.
    Mr. Burgess. The gentleman yields back. The chair thanks 
the gentleman.
    The chair recognizes Ms. Clarke from New York, 5 minutes. 
Your questions, please.
    Ms. Clarke. I thank the chairman. I thank the ranking 
member.
    Thank you, Dr. Rosekind for coming in today. Am I 
pronouncing your name correctly?
    Mr. Rosekind. Rosekind.
    Ms. Clarke. Rosekind. OK. That was the Brooklyn 
pronunciation.
    I think it is safe to assume that cars are going to 
continue to come equipped with more technological features 
going forward. Connections exist through popular telematic 
systems, such as OnStar and built-in entertainment and 
navigation systems. But as we have heard in numerous hearings 
in this subcommittee, covering different aspects of the 
internet of things, if a product can connect to the internet, 
that product is going to be a target for hackers.
    Dr. Rosekind, what is NHTSA doing to ensure that the 
growing number of connected features in cars don't become new 
entry points for hackers? What are the consequences for 
automakers that do not have robust cybersecurity? And does 
NHTSA have plans to pursue a rulemaking on cybersecurity?
    Mr. Rosekind. So, let me start with the consequences. Last 
July, there was a highly visible hack of a Jeep, which was at 
least planned. So, there has been no malicious hack of any 
vehicle yet. But we highlighted that it is no longer a concept. 
It is real. And I point that out because without any change in 
our authorities, et cetera, within days a defect was called and 
a recall was underway. So, we are going to act aggressively and 
get on those when possible.
    But you are bringing up an issue which is the more 
connected everything is, the more cybersecurity becomes 
critical. NHTSA has actually been on this since 2012, where we 
created an office specifically focused on it. This is my chance 
to thank everybody for their support in the FAST Act.
    We have about seven engineers on this, four in Washington, 
three in Ohio. The FAST Act is going to let us add up to 20 new 
engineers to deal with this and they are looking at a broad 
range from how you protect things to one of our recent focus on 
research is looking specifically at what are the data elements 
you would actually have to collect to see that hacking attempts 
were ongoing. And so there is a very active research program 
that is going on, as well as a lot of others.
    We have published a cybersecurity piece on our policy. We 
are developing some new program elements. January, we held a 
meeting with over 300 folks coming together, manufacturers, as 
well as independent researchers to get to look at these sorts 
of things.
    Specifically to your question, this is an area where we 
need to figure out to how to sort of cut that middle line, 
which is we talk about nimble and flexible for cybersecurity. 
If you come out with a rule today, by tomorrow, it could be out 
of date. And yet at the same time, you need some best practices 
and potentially rules to establish certain kinds of hard 
protections and things. So, I think this is an area that you 
are going to have see a variety of different techniques used to 
get the full kind of protection the American public is going to 
expect.
    Ms. Clarke. Very well. As you refer to the Jeep experiment 
with the two researchers, Dr. Rosekind, when it comes to cars, 
cybersecurity isn't about data. It can really be about safety 
issues, can't it? A joint bulletin that NHTSA released with the 
FBI a month ago said that consumers should take appropriate 
steps to minimize risk with respect to hacking. Can you explain 
what some of those steps might be?
    Mr. Rosekind. Yes, and thank you because you are right, our 
focus is primarily on the safety. And that hack that was done 
on the Jeep last July specifically dealt with control systems 
of the vehicle and that is where the safety concern comes.
    And yes, thanks for acknowledging the collaboration with 
the FBI and putting that out. And that had a lot of 
straightforward things that all of us can do, which is just be 
careful about what you hook up to your entertainment systems. 
So that Jeep hack actually went through their entertainment 
system, for example.
    And I think all of us basically can think about all the 
things that we attach to our vehicles, whether you are nowadays 
a huge number connected to the web, if you are out there 
searching, you have a chance not just for a virus come and be 
difficult for you but literally to get into your systems.
    So, there is a nice list of things in that press release 
that was put out, basically cautioning people. If you think 
about it, you would want to do the same things you would do for 
your home computer to protect yourself, to think about your car 
in the same way.
    Ms. Clarke. I thank you.
    Mr. Chairman, I yield back the balance of my time.
    Mr. Burgess. The gentlelady yields back. The chair thanks 
the gentlelady.
    The chair recognizes gentlelady from Indiana, Mrs. Brooks, 
5 minutes for questions, please.
    Mrs. Brooks. Thank you, Mr. Chairman.
    I consider my district actually the auto auction capital of 
the United States. Car Auction Services, which is headquartered 
in my district is the second largest auto auction company in 
North America, selling over four million vehicles a year, 
employs 14,000 people in all 50 states. And I also, in north of 
Indianapolis, in Carmel, have NextGear Capital, just expanding 
their headquarters in Carmel. And I have been to their facility 
where they serve over 20,000 auto dealers who depend on them 
for $13 billion in capital to fund their auction purchases.
    They tell me they, of course, want to help protect people 
by ensuring that they know that their customers know of car 
defects before they buy. But right now, safercar.gov only 
allows customers to search VIN numbers one at a time to check 
for recalls. With over 9 million cars sold at auction every 
year, auto auctions simply don't have the manpower or the 
resources to tediously input every single number. And so by 
allowing auto auctions to run every car in their lot for recall 
notices in one query, the consumer would be more equipped to 
make better decisions, higher successful recall rates and, 
ultimately fewer accidents on the road.
    And, obviously, we have been talking about the FAST Act 
passed last year and it studied the feasibility of searching 
multiple VIN numbers at the same time and the feasibility of 
making the search mechanism for the event. Can you give me an 
update on the progress you have made and NHTSA's made with 
respect to the search of multiple numbers at once and what 
hurdles do you still face?
    Mr. Rosekind. And actually, you have just described them, 
which is the NHTSA lookup is a tool for consumers. And we don't 
even actually maintain a database. That is really just tapping 
the auto manufacturers who control their VIN databases.
    So, we know there is a great need and interest in having 
what is called batch or bulk lookups so that you could do it as 
a group. And the auction houses, new dealerships, all kinds of 
folks would really benefit by that. So, we have met with folks 
and I think the biggest thing that we are seeing is the 
technology challenge, as you are talking about, the creation of 
some mechanism. As I just said we don't even keep the database, 
we go to the manufacturers. How would you create a mechanism, 
basically, technologically so you could have those bulk 
requests going to multiple manufacturers in a very short time 
frame and providing that bulk answer, basically, to whomever 
the requestor is.
    I think at most, at this point, is the technology challenge 
and, clearly, how it would get funded is unclear as well. 
Everybody is sort of pointing to that.
    There are three commercial entities that exist that do 
that. Carfax is one of them. I can get you the other two, if 
you would like.
    And so we are looking. We met in July, again, frankly, to 
talk about what would happen. I think the technology is the 
biggest piece right now because no one quite has an answer of 
how to pull that off.
    Mrs. Brooks. But isn't part of our challenge that we have 
so many people who do purchase vehicles that are moving through 
the auto auctions? And so consumers, it is very, very difficult 
for them to know if they are getting one of these cars that has 
one of these problems.
    Mr. Rosekind. Absolutely, and just two things. One is when 
I say there is a technological challenge, that doesn't mean we 
aren't off of it. It actually means that we are trying to be 
more aggressive to figure out how could you fix that issue. And 
you have hit on another issue, which the FAST Act addressed for 
rental cars. But in used cars, people can still sell those 
without having the recall remedied. So, that is one of the ways 
to get to those.
    And that is why I say we met in July and we are still 
meeting with them to see if we can figure out what the 
technological solution could be.
    Mrs. Brooks. OK. I certainly hope that some of your 
engineers working on cyber issues, may be with all of that 
brainpower of those engineers, maybe can also be tasked to have 
that as a topic.
    I want to turn to a different topic right now. Last year or 
this past month, rather, a Griffith High School boys basketball 
team was traveling to a semi-state championship. A driver 
sideswiped their bus and the bus flipped and overturned, as 
they were on the way to their semi-state game. None of the 
children were seriously injured. However, it reminds us about 
the importance of getting seatbelts on school buses.
    And last September, you announced a series of steps 
designed to move the nation toward providing more seatbelts to 
students on school buses. Can you please tell us about the 
research projects, the data collection, stakeholder outreach, 
what is going on with respect to this project?
    Mr. Rosekind. I can't thank you enough for raising that 
question. There are so many headlines that people want to talk 
about. That is one for 4 decades there has been debate out 
putting seatbelts on school buses. And yes, it is a clear 
departure for NHTSA to come out and basically say three-point 
belts would add--the big yellow bus is the safest way to get to 
and from. Can you make it safer? Absolutely. So, we have 
already had a 1-day meeting to talk about how to make that 
happen. We have identified the fact that it is not just about 
seatbelts on the bus, it is around the bus. So, we are looking 
at everything from the red lights on the arms to guards that 
help people pass in front.
    We are looking at all those different things, including our 
most recent meeting about a month ago, where we pulled the six 
states that do have laws related to seatbelts in to figure out 
what they are doing and how we could helpfully try and scale 
that to the rest of the country.
    So, we are on that trying to figure out anything we can do 
to support three-point seatbelts on school buses.
    Mrs. Brooks. Thank you for your service. My time is up. I 
yield back.
    Mr. Burgess. The chair thanks the gentlelady. The 
gentlelady yields back.
    The chair recognizes the gentleman from New Jersey, the 
ranking member of the full committee, Mr. Pallone, for 5 
minutes for questions, please.
    Mr. Pallone. Thank you, Mr. Chairman.
    As others have mentioned today, in January DOT and 18 
automakers reached an agreement known as the Proactive Safety 
Principles and I am glad to see auto manufacturers and DOT try 
to work proactively on vehicle safety. But frankly, I have 
doubts about these principles.
    The principles are simply a promise to try to work together 
in the future. There is no substance. And even if there were, 
there is no enforcement to ensure that the automakers keep 
their commitments. So, I wanted to ask you, Dr. Rosekind, can 
you assure me that these principles are meaningful in some way, 
that these principles are more than a PR stunt to shift the 
focus away from the major safety crisis of the past few years?
    Mr. Rosekind. And you are absolutely correct, it is not a 
regulation and they are not enforceable. And I can tell you in 
April we had a meeting for the very first time to discuss with 
the automakers 100 percent recall completion rate as a target.
    That is now included in that Proactive Principle. Never 
before has--everyone has always talked about let's get 75 
percent because that is the average. We are now talking about 
100 percent should be that target. That is in there. Can 
everybody do more? Absolutely, but now we have a new target 
that is already in there.
    I think the automatic emergency braking that we see happen 
is another proactive one and in the cybersecurity area, 
Chrysler actually, in May, is having their own 2-day just 
industry meeting to focus on things. That wasn't intended to be 
a regulation. It wasn't intended for enforcement. We are going 
to use all the enforcement and regulatory authority we have. We 
are not giving anything up.
    My concern is the 32,675 and that we are looking at a nine 
percent increase this year. And we all know if we keep doing 
the same thing, we cannot expect a different outcome.
    So, we will continue doing everything we know that works. 
We will figure out ways to do it better but NHTSA is looking 
for every other tool that we can find that could help save a 
life.
    Mr. Pallone. All right. But in addition, and I appreciate 
that because I think that even though you are admitting that 
there is no enforcement mechanisms per se, that you are going 
to try to use other measure that you have to do that.
    In addition to the lack of enforcement, though, I also have 
reservations about the closed door process that NHTSA has been 
engaging with recently. With regard to the Proactive Safety 
Principles, were any auto safety advocates directly involved in 
crafting the principles?
    Mr. Rosekind. That process started on December first when 
Secretary Foxx called all the COs in because of all the recall 
and safety problems going on in the industry. It was clearly 
beyond just breaking issues and issue of the safety culture in 
the industry. He called them in and said we need to do 
something different. And 6 weeks later, that agreement emerged 
among them, basically, to come up with these principles in 
those four areas. So, that started with a meeting with the 
automakers. Six weeks later, through the holidays, frankly, is 
when it actually came together. So, there was, again, there was 
not a public process. That was come in, what are you going to 
change? And that was agreement that came together.
    And I will say it again. It is not intended to be a 
regulation. It is not intended to be enforcement but everybody 
is watching and we already have some concrete things like that 
agreement looking to target 100 percent completion. Activity is 
already going on. Cybersecurity already being advanced. We have 
a safety meeting coming up, next week, basically, where we are 
going to be looking at how to take aviation lessons learned and 
apply them to the auto industry. So, in that agreement, it 
talks about anonymous sharing of safety data. That meeting to 
start that process is actually happening next Friday. They are 
concrete actions and we are watching.
    Mr. Pallone. So, I mean there weren't any auto safety 
advocates directly involved. But I mean how are you going to 
try to get them involved? What are you going to do?
    Mr. Rosekind. That agreement is public. It is out there. 
The activities, basically, are aware. So, anybody can have 
input into what is going on. And that, again, was an agreement 
of the manufacturers to proactively move things forward.
    Mr. Pallone. So, I mean there wasn't any public comment 
period for the Proactive Safety Principles.
    Mr. Rosekind. It was not a regulation. It is not intended 
to be enforced.
    Mr. Pallone. No, I understand. I mean I appreciate your 
honesty about lack of enforcement, lack of involvement of the 
auto safety advocates. Lack of a comment period. I mean I don't 
think that is good but I appreciate your honesty.
    But how are we going to--we don't want to have similar 
agreements like this in the future. I mean I think it is 
important to involve the public safety advocates. It is 
important to have public comments, a public comment period 
prior to finalization. So, can you make some commitment to us 
that in the future you will try to do that or what can you tell 
us that makes me feel a little better about the lack of all 
this?
    Mr. Rosekind. Well, NHTSA is going to look for all the 
tools that are available. And that means we are going to have 
as much interaction with a full range of safety advocates for 
all the activities that are going on. And, frankly, some of the 
process have clear elements where notice in comment for 
rulemaking, there are opportunities for everybody to get 
involved in the public docket, et cetera. There are always 
going to be other activities that go on that certain groups 
aren't going to be involved in.
    Mr. Pallone. I guess my concern--I know that my time has 
run out, Mr. Chairman--is that these voluntary good practices 
on the part of business are certainly something we hope for but 
the rulemaking process exists for a reason and mandatory safety 
standards have prevented more than 600,000 deaths since the 
1960s.
    So, I don't want the agency moving away from mandatory 
standards. That is my concern.
    Mr. Rosekind. And that is why I can state absolutely 
emphatically that we will continue to regulate and enforce as 
we need to and we are looking at and we want to expand and add 
to our tool set that we can try and see progress on safety.
    Mr. Pallone. All right, thank you. Thank you, Mr. Chairman.
    Mr. Burgess. The chair thanks the gentleman. The gentleman 
yields back.
    The chair recognizes the gentleman from Kentucky, Mr. 
Guthrie, 5 minutes for questions, please.
    Mr. Guthrie. Thank you, Mr. Chairman. Thank you 
Administrator Rosekind for testifying.
    It is my understanding that what is sometimes called the 
One Nation Program, referring to fuel economy regulations was 
intended to coordinate or harmonize various federal, state, and 
state regulations as much as possible. Since there are 
effectively three separate sets of regulations for EPA, NHTSA 
and state regulation, it has come to my attention that 
differences between even the federal programs make compliance 
more difficult.
    First, do you agree that the development of the One Nation 
Program was to provide consistency and certainly for 
automakers?
    Mr. Rosekind. Yes, among those three groups that you 
highlighted, NHTSA, EPA and especially the California Air 
Resource Board.
    Mr. Guthrie. OK. Are you aware of the differences between 
programs that affects stringency and possible compliance?
    Mr. Rosekind. Are there specific ones?
    Mr. Guthrie. Well one, if I am not mistaken, EPA credits 
can have a useable life of up to 10 years versus NHTSA credits 
have an up to 5 year of life. So, because of that difference, 
then somebody could be--an EPA credit could be compliant with 
EPA but not compliant with NHTSA. Is that a conflict?
    Do you see that or is that something you are working 
through?
    Mr. Rosekind. Two things. One is I would say that if there 
is a specific instance that somebody is sort of questioning 
where that inconsistency is, I would love to see that so we can 
see what is actually going on there.
    Mr. Guthrie. OK.
    Mr. Rosekind. But the other thing, to the question about 
consistency more generally is there is a mid-term review that 
is coming up, where we will be putting out a technical 
assessment report so that we can basically take a look at how 
that is doing and a draft report will come out for exactly 
those kinds of comments that people can address.
    Mr. Guthrie. OK. That was a specific instance. Somebody 
could come to me and say that they have been written up for 
being compliant with one or the other but they look at the 
standard and say they were----
    Mr. Rosekind. Importantly, in that mid-term review, there 
will be a draft that everybody can comment.
    Mr. Guthrie. OK, we will follow-up specific on that, then.
    So, shifting to recalls and focusing on the millions of 
motorists and occupants who are driving or riding in vehicles 
under open recall, and what is the status of the new recall 
media campaign you announced last September?
    Mr. Rosekind. So, there have actually been a variety of 
activities going on. That one is Safe Cars Save Lives and we 
are doing media buys. And NHTSA is the agency that has Click It 
or Ticket; Drive Sober or Get Pulled Over; You Drive, You Text, 
You Pay. We have these national campaigns we do. This is a new 
one focused specifically on recalls.
    The other two things I will just mention quickly are, 
besides our activities going on, the automobile associations 
are doing research and looking at other mechanisms, things like 
contacting the insurance companies so that when you not just 
register your card but when you touch your insurance company, 
another touch point. And then the independent monitor with us 
is also working with Takata and all the manufacturers affected. 
As part of the consent order, they are required to give us 
their outreach plan. And so that way, we can actually look at 
it. And we have come up with almost 20 new robust strategies 
for them to pursue, along with about a dozen things that we 
already have underway.
    Mr. Guthrie. Takata, obviously, is a case, the recall 
obviously is different but there are a lot of recalls for a lot 
of different reasons. Do you look at recall fatigue? Like your 
door handle needs to be readjusted or I mean, I have heard--I 
have never seen one something specific but people say if there 
is a typo in an owner's manual, you get a recall notice on 
that. I haven't personally seen that one so I can't say. But I 
do see recalls that come through cars that I have and I say I 
will get around to that one because it is a screw in the chair 
seat or something like that versus, obviously, Takata, that is 
safety.
    Is there a way you try to or are concerned about people 
continuing getting recalls and then all of a sudden one is more 
serious than others and I guess recall fatigue?
    Mr. Rosekind. Absolutely and I think that has been the 
problems with the headlines is people get so many notices, 
potentially, when you are looking at, I mentioned a number, but 
last year in 2015, it was 900. The year before we are talking 
about 51 million vehicles being affected.
    And so yes, consumers, just knowing that that is something 
they need to pay attention to is a challenge. And then if you 
are getting multiple ones for different cars, that is a real 
problem. That is why we are trying to come up with new 
strategies, new approaches. While there is a lot of activity 
going on, I think the tragedy from a couple of weeks ago shows 
we have got to do more.
    Mr. Guthrie. Absolutely. And then I only have 19 seconds 
but you said publicly and your staff has said that auto safety 
technologies may have environmental benefits that would reduce 
greenhouse gases. Can you give a couple of examples of that in 
8 seconds? Sorry.
    Mr. Rosekind. Engines that are more efficient.
    Mr. Burgess. The chair thanks the gentleman. The gentleman 
yields back.
    The chair recognizes the gentleman from Oklahoma, Mr. 
Mullin, 5 minutes for questions, please.
    Mr. Mullin. Thank you, Mr. Chairman.
    Sir, thank you for being here. It is very impressive, your 
command and knowledge of NHTSA. I think the whole time you have 
been there I haven't seen you even look back at anybody behind 
you or even look at a note. So, I will commend you for that. I 
am not capable of doing that.
    I just want to run a little bit on the recalls. 
Unfortunately, we heard of the young lady that lost her life 
and that has been brought up and talked about. There were some 
questions about how the vehicle is registered. I get that, too. 
But I have, on multiple vehicles, over time, and I still get 
recalls from vehicles that I owned years ago. Is there not--
unless I am mistaken, I thought the DMVs were supposed to 
notify or help notify the individuals when they are registered 
with them of recalls. But is the DMVs communicating with the 
manufacturers to let them know that the vehicles change hands, 
some way to get those notifications farther out there? Because 
what we are having is obviously it is not being effective. And 
I understand the responsibility of the driver but, at the same 
time, when you a buy a vehicle or used, you assume everything 
is perfect on it. You are not looking for recalls. If you are 
looking for recalls, you would have never purchased the 
vehicle.
    So, is there communication with the state, with the 
manufacturer, with the DMVs? What is that communication like?
    Mr. Rosekind. There should be but you have just hit on, 
besides things like recall fatigue, you are hitting on another 
issue, which is where in the communication did that break down. 
Because one of the concerns you are just raising is when there 
is a multiple buyer, you have the used car has been bought by 
multiple buyers over time, there is the assumption that somehow 
that transition of ownership has been taken care of, that all 
the appropriate information has been passed on. That is not 
always tracked. And so now you are looking at the whole system, 
DMV, the manufacturer, where the notices go out, even if they 
have updated information on the owner and make sure that they 
are sending it to the right address where you actually live.
    So, you have just hit on another issue that we are trying 
to unravel, to figure out where all those touch points could 
be. That is why there is the interest in the DMV pilot. Is that 
something if you are going to register the car we could get you 
again?
    And I would actually like to use you in ad because you have 
got it. If you buy a new car, a used car, a rental car, your 
assumption is that it has no outstanding recalls.
    Mr. Mullin. Right.
    Mr. Rosekind. But that is not the case.
    Mr. Mullin. And the other breakdown, too, you can't--I have 
a fleet of vehicles and several mechanics that work for us in 
our companies. And you can't work on a car anymore without 
plugging it into a computer. It would seem that there would be 
a way for a notification to come up on the vehicle and 
everything that is connected the way that it is that there is a 
recall, regardless if the manufacturer is working on it at a 
certified GM mechanic or the mechanic down the road. You would 
think that would be a way for it to communicate because 
everybody has got to take their vehicles in and get the oils 
changed. Very few people are changing their oil now in their 
driveway. That might be a way.
    And I am open to discussing it further with you of maybe 
some simple ways that we might be able to come up with some 
more communication, more ways for just the average consumer to 
be able to get the technology or the information that they 
need.
    I want to go back to Mrs. Brooks and bring up the school 
bus issue. I have five kids that go to public school from 12 to 
5 years of age. They are going to be there for a while. And 
they are on a school bus all the time. The question is, though, 
I don't think any school is arguing the fact they want to put 
seatbelts in the school buses. It is that they can't afford it.
    So, is NHTSA looking at a program to help the schools? 
Because if we just mandate it for the schools to do it, schools 
are having issues with revenue left and right. We continuously 
put unfunded mandates on the school systems and you are not 
going to find a teacher, a superintendent, or someone elected 
to the school board that is going to argue the point that they 
don't want seatbelts in the school buses. But we have got to 
have some type of program to incentify them to be able to do it 
and funding that goes along with it.
    Mr. Rosekind. And we are looking at all those 
possibilities. And to your point, we don't want school 
districts to make the choice to not provide that safe school 
bus because of their concern about the seat belts. That is, 
again, one of those fine lines we have to tread. That is why we 
came out with a policy but without the mandate at this point, 
trying to figure out how other states and school systems have 
done it and we have met folks where they didn't have the funds 
but they made a decision in the district to only order new 
buses with three-point belts. They found a way to pull it off.
    Mr. Mullin. Well, you can order new buses that way. It is 
the old buses. And we know how expensive the new buses are. How 
long is it going to take to get the old buses off the roads? 
You are talking about years at that point.
    I am out of time. Sir, thank you for being here. I really 
do appreciate it. I yield back.
    Mr. Burgess. The gentleman yields back. The chair thanks 
the gentleman.
    The chair would recognize Ms. Schakowsky from Illinois for 
a redirect.
    The chair will recognize himself for the opportunity for 
redirection to the Administrator for the National Highway 
Traffic Safety Administration.
    There is something that has come up relatively recently 
that I hear on car shows on Saturday morning and that is the 
issue of the seat back integrity. We put our children in car 
seats. We put them in the rear seat. But in some vehicle 
crashes the seat integrity of the seat back is what fails 
putting the adult then in the compartment with the child and 
the child is then injured. Is this something that you are 
looking into currently?
    Mr. Rosekind. Yes and fortunately, severe rear impacts, 
severe, are fairly rare. And then when someone is specifically 
injured, trying to determine was it specifically the seat back 
strength is more rare. Which just means trying to get the data 
to figure out the safety benefit and other benefit 
determinations, these things can be challenging. But we are 
looking at from a potential regulatory standpoint and from a 
research standpoint. So, even if we don't have the real world 
data, we are looking at actually a new test dummy that would 
allow us to collect better data to make that kind of 
determination, which we would have to do to come out with a 
regulation in that area.
    Mr. Burgess. Very well.
    And then another unusual thing that happened in the North 
Texas area the day after Christmas, we had a very severe 
tornado. It blew in suddenly. It came at nighttime. Difficult 
to let people know it is coming. The greatest loss of life 
occurred on a tollway overpass, not people getting under it to 
get out of the path of the storm, which I recognize is a bad 
idea because of the Venturi effect under the overpass, but 
these were people actually travel over the overpass and they 
got pulled off the road and, obviously, there were multiple 
fatalities.
    Department of Transportation has lighted signs that they 
put up and, as you alluded to, the Click It or Ticket, or Drive 
Sober or Get Pulled Over, sometimes there will be traffic 
warnings. Is there any thought to providing timely weather 
warnings? The hailstorm we just had a few days ago in my area, 
this tornado the day after Christmas, people that are--I would 
like to say that everybody is listening to the weather warning 
station at that point but we know they are not. They are 
listening to their sound systems. Is there anything 
additionally we can do?
    This was kind of a new phenomenon, something I had not seen 
before, but people, again, literally sucked off the overpass 
and thrown into the lake and, again, with great loss of life.
    Mr. Rosekind. You have just said it, which is we use those 
signs for a lot of different things. And I will go and talk to 
Greg Nadeau, who is the Administrator of the Federal Highway 
Administration and see if that kind of information could be 
added to what is transmitted to the drivers.
    Mr. Burgess. I appreciate that. Do you mind if I go to Mr. 
Bilirakis first?
    Ms. Schakowsky. No, that is fine.
    Mr. Burgess. OK. The Chair recognizes Mr. Bilirakis, 5 
minutes for questions.
    Mr. Bilirakis. Thank you so much, Mr. Chairman. I 
appreciate it.
    Administrator Rosekind, where do we stand currently with 
the V2V? Well, if you can tell me that. And then elaborate a 
little bit how it is going to work.
    Mr. Rosekind. Sure. Let's start with people talk about 
either or, connected vehicles or autonomous self-driving 
vehicles. The Department of Transportation thinks of this as 
connected automation. It is really both because they both give 
you sort of added safety.
    Connected vehicles are basically V2V, vehicle-to-vehicle, 
vehicle-to-infrastructure, V2X, anything else, or basically 
they are all going to be able to talk. What we know is that 
studies so far suggest that even two applications of V2V could 
prevent 600,000 crashes and save 1,000 lives. So, it has huge 
opportunity. Overall, potentially 80 percent of crashes that 
don't involve an impaired driver could be prevented with V2V.
    So we have, actually, introduced a rulemaking which has 
been accepted by OMB for review just to try and set up a 
consistent piece of equipment that would be used for the whole 
system in the United States.
    Mr. Bilirakis. OK. Well, when do you anticipate this being 
online or you know our constituents availability? Give me a 
timeline on that.
    Mr. Rosekind. Right now, it has been accepted by OMB and is 
under review. So, that is kind of where we are, answering their 
questions.
    Mr. Bilirakis. So, 1 year, 2 years, any kind of an 
estimate?
    Mr. Rosekind. I can tell you that the proposal is to have 
it out--I will check the final date in the proposal. We have a 
specific in the proposal for when it will be on the road. My 
caution is just to say that our piece has it out proposed, it 
is currently under review at Office of Management and Budget.
    Mr. Bilirakis. Thank you. Next question.
    NHTSA has announced several initiatives and workshops on 
numerous issues over the last 6 months and plans to complete 
work on these topics prior to the end of the administration. Is 
that correct?
    Mr. Rosekind. Yes.
    Mr. Bilirakis. OK. How are you ensuring adequate work and 
thorough stakeholder engagement is done on these important 
issues before the final actions are taken?
    Mr. Rosekind. Well, for a variety of the activities, they 
are, in fact, open public meetings. So retooling recalls was 
open. We have others, cognitive distraction that have been live 
webcasts for things.
    Right now the Secretary has announced in 6 months NHTSA is 
going to put out several things if you like to talk about 
autonomous vehicles. We just held the first public meeting on 
that last Friday. There is another one April 27th in 
California. There is an open docket for that.
    So, for activities that are leading to specific products, 
there is both some transparency and involvement from 
stakeholders.
    Mr. Bilirakis. Very good. Thank you.
    What are the key takeaways from the cybersecurity 
roundtable that NHTSA held in January?
    Mr. Rosekind. Fascinating exchange because we had 
manufacturers in there with independent researchers and pretty 
much the whole mix. And I would just say one, it was 
fascinating to see that everybody thought you needed nimble and 
flexible, cautious about regulations because they could be 
outdated cybersecurity-wise before they are even in place. And 
the other is that everybody identified this is critical not 
just for protection but for the trust of the American people to 
see these automation things get on the road.
    Mr. Bilirakis. OK, very good. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Burgess. The chair thanks the gentleman. The gentleman 
yields back.
    The chair recognizes the gentleman from California, Mr. 
Cardenas, 5 minutes for questions, please.
    Mr. Cardenas. Thank you very much.
    And thank you, Dr. Rosekind for coming forth and answering 
our questions. And you are welcome to ask questions as well.
    But I just wanted to thank you for all the work that you do 
and please, if you would, translate that to all of the good 
workers that you are surrounded with. And my first question has 
to be speaking of workers and the people you are able to 
surround yourself with, do you have as many people in your 
organization that you would need to address all the issues that 
you recognize you should be addressing or getting in front of?
    Mr. Rosekind. No.
    Mr. Cardenas. I had a funny feeling that would be the 
answer.
    Mr. Rosekind. But if you will let me, I will just say----
    Mr. Cardenas. Please.
    Mr. Rosekind. Well, thank you because this committee and 
the FAST Act is helping us get there. So, Office of Defect 
Investigations, which we have talked so much about has the 
potential now for us to hire 57 new people and address that 
issue. So, thank you so much because that is a huge difference 
for us.
    Mr. Cardenas. So, 57 new people. I am glad we were able to 
make sure. Congress has the power of the purse. So, that is up 
to us to give you your budgets, et cetera. So, I am glad we did 
that.
    But being an engineer myself, and someone who understands 
how the best way to get in front of an issue is to be proactive 
and an organization that has to do with traffic safety like 
yours, it is very important that people understand that, 
unfortunately, it is not that often that the United States 
constituents receive the benefit of other countries good work 
on issues like this. We tend to be the leaders. Isn't that the 
case? Not always, but tend to be the leaders more often than 
not.
    Mr. Rosekind. And I try and preface this by saying I am 
biased. But I would like to say certainly in a lot of the 
technology innovations, the U.S. is a leader.
    Mr. Cardenas. Yes, and I believe that is the case both in 
the issues we are talking about today here and in many, many 
things. It is something that we as Americans should be proud of 
but with all due respect, government does have its place, 
especially when it comes to safety of the American public and 
anybody who comes to our great country and assumes that safety 
is a priority for us and that we are continuing to make it a 
priority. So, once again, thank you, Doctor.
    I would like to ask you, as I am sure you are aware, in 
February, the Center for Auto Safety filed a lawsuit against 
the Department of Transportation alleging that by failing to 
publish technical service bulletins or TSBs in their entirety 
online for consumers, DOT was in violation of MAP-21s. Finally, 
on March 25th, DOT announced that it would publish TSBs and it 
has been brought to my attention that full TSBs are now 
available on the Web site. I look forward to ensuring they are 
all up as soon as possible.
    However, members of this committee worked very hard to have 
TSB publication included in MAP-21. And while I am pleased that 
NHTSA is beginning to finally comply with the requirements, I 
think it is unfortunate that it took a lawsuit to get NHTSA to 
make that happen.
    I would like to ask you about the Early Warning Reporting 
System. That system was put into place in 2000, after the 
highly publicized Ford Firestone tire recalls. Early Warning 
Reporting is intended to alert NHTSA to vehicle defects as 
early as possible, ideally, helping to identify major problems 
and minimizing the risk to the public. However, last year's 
audit by the Department of Transportation's Office of Inspector 
General highlighted some problems with the current Early 
Warning Reporting System. It said that safety defects are often 
mis-categorized and that manufacturers have wide latitude on 
what information they are required to provide.
    Dr. Rosekind, what changes or improvements, if any, is 
NHTSA making to the Early Warning Reporting System to respond 
to the findings in the IG report?
    Mr. Rosekind. So, this came up in opening comments. This is 
an opportunity to give everybody an update.
    There were 17 recommendations that the Inspector General 
identified. The Early Warning Reports, EWRs, were one of them. 
We made an aggressive commitment to finish all of those 
recommendations within a 1-year period, so by the end of June 
2016. And the Inspector General was very clear nobody ever does 
that, actually give them a schedule.
    We have six of those closed ahead of schedule and we have 
the other 11 already identified and on schedule to be finished 
by the end of June 2016.
    We have also done one other thing that nobody ever does. We 
have actually set up technical meetings with the IG's office to 
tell them what our plans are to meet those recommendations so 
that we have an ongoing discussion with them to make sure we 
meet them in an appropriate closed way.
    Mr. Cardenas. So, 11 out of 17 have been addressed ahead of 
schedule.
    Mr. Rosekind. Six. The first six ahead of schedule. We are 
working on the other 11, which are on schedule.
    Mr. Cardenas. OK, on schedule.
    Mr. Rosekind. Yes.
    Mr. Cardenas. It sounds like you are not only a good 
listener, you are a good action department. So, I just wanted 
to thank you so much for doing that.
    Ahead of schedule is great. On schedule is good. And we 
hope that you are able to do that. Not that you would want to 
opine, but I hope that on this side we are as good a listener 
as you are. Thank you so much.
    Thank you, Mr. Chairman.
    Mr. Burgess. The chair thanks the gentleman. The gentleman 
yields back.
    The chair recognizes Ms. Schakowsky from Illinois for a 
redirect.
    Ms. Schakowsky. Thank you.
    So, just a few weeks ago, the new chairman of the National 
Automobile Dealers Association or NADA said that--or maybe it 
is NADA, NADA sounds--I don't know. OK, I don't know which it 
is--said that we shouldn't have legislation requiring dealers 
to fix all recalls on used cars before they can be sold because 
only six percent of recalls are hazardous.
    Now, I have a letter that we received today from Cally 
Houck, mother of Raechel and Jacqueline Houck and Alexander 
Brangman, father of Jewel Brangman. And it says as parents of 
precious, beautiful, talented daughters killed by recalled cars 
with lethal safety defects, we are appalled that you--it is a 
letter directed to Jeff Carlson, Chairman of the National 
Automobile Dealers Association--that you would claim that 
``only six percent of recalls are hazardous.'' Our daughters 
were driving or riding in cars that were the very defects that 
you claim were not hazardous and, therefore, acceptable for 
your car dealer members to sell to the public without repairing 
the defects first.
    So, Dr. Rosekind, I think it really is important to clarify 
this point. Does NHTSA require manufacturers to recall vehicles 
if a defect is even not safety related but all defects?
    Mr. Rosekind. We have been at this before, haven't we?
    Ms. Schakowsky. We have.
    Mr. Rosekind. Yes. And a defect that is an open recall 
needs to be fixed, whether it is new, used, or rental.
    And we just heard the Congressman say the assumption in any 
one of those circumstances is that if there is open recall, 
there is no defect.
    Ms. Schakowsky. So, do you plan to reply at all to the 
notion--first of all, is that accurate, in your view, that the 
deaths of these girls was caused by something claiming to be 
nonhazardous by the Dealers Association?
    Mr. Rosekind. This is one of those ongoing challenges of 
them trying to--of individuals trying to sort of split. That is 
why we are pretty straightforward. Any open recall needs to be 
fixed, period.
    Ms. Schakowsky. So, are dealers prohibited, then, and 
should be prohibited from selling or leasing used cars until 
all recalls have been repaired?
    Mr. Rosekind. That was in the GROW AMERICA Act and we 
believe any new, used, or rental should be free of defects.
    Ms. Schakowsky. Well, I hope that is really strongly 
communicated. I feel an obligation to the people from whom we 
received this letter and to the lost daughters of theirs that 
we make that perfectly clear.
    Thank you. I yield back.
    Mr. Burgess. The gentlelady yields back.
    And that concludes questions for the first panel. Dr. 
Rosekind, thank you very much for your forbearance in staying 
with us today.
    We will take a 2-minute recess to set up for the second 
panel, at which time, we will reassemble.
    [Recess.]
    Mr. Burgess. I want to welcome everyone back and thank 
everyone for their time and patience in being here today.
    We will move into our second panel for today's hearing and 
we will follow the same format as the first panel. Each witness 
will be recognized to give 5 minutes to summarize their opening 
statement, followed by a round of questions from members.
    For our second panel, we have the following witnesses: Mr. 
Mitch Bainwol, President and CEO at Alliance of Automobile 
Manufacturers; Mr. John Bozzella, President and CEO at Global 
Automakers; Mr. Michael Wilson, CEO at Automotive Recyclers 
Association; Ms. Jackie Gillian, President at Advocates for 
Highway and Auto Safety; Ms. Ann Wilson, Senior Vice President 
at Motor and Equipment Manufacturers Association.
    We do appreciate you all being with us here today. We will 
begin the panel discussion with you, Mr. Bainwol, and you are 
recognized for 5 minutes to summarize your opening statement.

  STATEMENTS OF MITCH BAINWOL, PRESIDENT AND CEO, ALLIANCE OF 
  AUTOMOBILE MANUFACTURERS; JOHN BOZZELLA, PRESIDENT AND CEO, 
 GLOBAL AUTOMAKERS; MICHAEL WILSON, CEO, AUTOMOTIVE RECYCLERS 
   ASSOCIATION; JACQUELINE GILLIAN, PRESIDENT, ADVOCATES FOR 
  HIGHWAY AND AUTO SAFETY; ANN WILSON, SENIOR VICE PRESIDENT, 
         MOTOR AND EQUIPMENT MANUFACTURERS ASSOCIATION

                   STATEMENT OF MITCH BAINWOL

    Mr. Bainwol. Chairman Burgess, Ranking Member Schakowsky, 
members of the committee, thank you for this chance to be here 
today to testify. I do so on behalf of 12 major OEMs based in 
the U.S., in Europe, and in Asia. Rather than read a prepared 
statement, I thought I would run through some slides very 
quickly to try to provide some context. So, if we can move to 
the next slide.
    [Slide.]
    Mr. Bainwol. This first slide is a 65-year trend line of 
fatalities on the U.S. roads. The vertical bars are fatalities 
in absolute numbers. And you see the roughly 33,000, which is 
roughly where we were in 1949. The green line is vehicle miles 
traveled and the yellow line is fatalities by vehicle miles 
traveled, which are down about sevenfold. That is what the CDC 
described as a tremendous public health achievement of the 
second half of the century.
    The gains, thus far, have been on the basis of two primary 
factors. One is changes in behavior, fewer people driving drunk 
and more people driving belted. And that is great.
    And the second piece of that has been technology focused on 
crash worthiness. So, when an accident occurs, folks survive 
that crash. It moves that yellow line down forward into the 
future, we will require technology to prevent crashes. Next 
slide.
    [Slide shown.]
    Mr. Bainwol. So a quick recall summary. As you all know, we 
did significant research last summer with Global Automakers and 
we learned a number of things, one of which is in terms of 
awareness, about 85 percent of the awareness that folks have of 
the recall comes from communications, from the OEM, and/or from 
the dealer. We also know that there is a relationship in terms 
of certain factors with recall completion. The more educated 
you are, the greater the level of completion, the higher the 
income, the greater the completion, the greater the risk 
perception, the higher the level of responsiveness. The older 
the age of the car, the less likely somebody is to bring the 
car in for completion. And the closer to the dealer 
relationship, the more likely somebody is to get that job done.
    So, what do we need? We need not just to drive awareness 
but to find ways to motivate people to comply with the recall. 
And we do mail and email until we are blue in the face. And 
folks, everybody gets a ton of communications and it is very 
hard to break through. It is not unlike campaigns and politics 
where sending a message is one thing; motivating somebody to 
behave is another thing. So, it is very, very tough. We need 
help and we need folks in the other elements of the ecosystem 
to engage. And that is why one of the reasons we are delighted 
with the FAST Act provision on DMVs. The pilot program, I 
think, they discussed with Administrator Rosekind, that is a 
really strong idea and we think that is worth pursuing.
    We also think it is a good idea and we have reached out to 
the insurance community because those folks engage drivers 
semi-annually, typically. And when you go in for a renewal or 
you go in for a quote, those folks can notify a consumer who is 
very focused on their car at that point about an open recall 
and they would be very, very helpful. Next slide.
    [Slide shown.]
    Mr. Bainwol. This is a sample insert. Given time, I will 
skip on. Next slide.
    [Slide shown.]
    Mr. Bainwol. So this is really important in terms of 
dimensionalizing the problem we have got. There were 32,675 
folks who died in 2014 on the roads and that is a tragedy. Of 
those, 31,479 perished in accidents that had nothing to do with 
the vehicle. OK? Three--let me find the number here--1196, 3.7 
percent were fatalities related to vehicle factors but in all 
vehicles, motorcycles, ATVs, trucks, and light duty vehicles, 
836, 2.6 percent were vehicle factors in light duty vehicles. 
And of that, roughly two-thirds were accidents related to 
vehicle maintenance factors.
    So, under one percent of the factors in 2014 related to the 
vehicle.
    The other part down there is very hard to see in the lower 
right, relates to the age of the car. Five percent of the 
fatalities were in cars that were 5 years or newer. That same 
proportion of the fleet is 27 percent.
    Cars that are older than 10 years represented 75 percent of 
the fatalities and just 46 percent of the fleet. So, obviously, 
there is a very direct relationship with the age of the cars.
    I will skip through the next slide and let's go to benefits 
of automation real fast.
    [Slide shown.]
    Mr. Bainwol. So, as you talk about the future and as you 
talk about technology and the tools necessary to drive 
increased levels of safety, there is this question about what 
happens with automation. Is it going to be a revolution with 
autonomy or is it going to be an evolution toward autonomy? And 
the benefits you accrue accrue immediately. So, the safety 
benefits you get from things like automatic braking, the 
environmental benefits you get from automatic braking, national 
security reduced use of fuel from automatic braking. The 
factors that you don't get, the benefits that you don't get, 
are things like access, which does require full autonomy.
    Last slide, given the time.
    [Slide shown.]
    Mr. Bainwol. If you look at market penetration, as you 
examine the future, this is a study that was done by Moody's 
that came out about a week ago and this is their estimate about 
the roll out of self-driving cars.
    In 2020, the self-driving car is available. That is roughly 
right. In 2030, they deem it to become common. In 2035, they 
deem it to become standard. And in 2045, they deem the fleet to 
be a majority self-driving. And in 2055, they deem it to be 
ubiquitous.
    So, we are talking about 40 years from now to ubiquity. 
Along the way, we have these technologies like automatic 
braking that will have a huge impact on the social benefits 
that we can accrue.
    We have an enormous opportunity to make fantastic safety 
gains and the focus on technology is when we should lean 
forward. I think the Administration has done exactly that. We 
applaud them for that. And we applaud this committee also for 
its focus on the promise of new technologies.
    [The prepared statement by Mr. Bainwol follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Burgess. The chair thanks the gentleman. The gentleman 
yields back.
    Mr. Bozzella, 5 minutes for your opening statement, please.

                   STATEMENT OF JOHN BOZZELLA

    Mr. Bozzella. Thank you, Mr. Chairman. Ranking Member 
Schakowsky, thank you for the opportunity to testify today.
    Global Automakers represents international automobile 
manufacturers and original equipment suppliers in the United 
States. Our members directly employ well over 100,000 Americans 
and sell over 40 percent of all new vehicles purchased in the 
country.
    Our companies are improving the safety of vehicles in the 
road today and revolutionizing mobility. Automakers are 
competing furiously and taking the lead to introduce innovative 
technologies that address and solve problems.
    I have submitted written testimony in which I discuss these 
matters in more detail. I will highlight two critical policy 
priorities that will help drive life-saving technologies into 
the marketplace. But first, I would like to update the 
committee on actions we are taking to improve recall 
completions.
    The recent tragedy in Texas has shown that we must continue 
to work urgently to reach every affected customer and fix every 
single vehicle. Since we last met, the committee took decisive 
action in the FAST Act to investigate what we think is a very 
important idea, addressing recall completion through the 
vehicle registration process. We requested that appropriators 
fully fund the pilots. We have been encouraging states to look 
at this. And we urge NHTSA to release the request for proposal 
to get the process started.
    The industry has been working hard to complete the Takata 
recalls by securing alternative airbag supply, by employing new 
methods beyond what is required by law to find, inform, and 
encourage owners to bring their vehicles in for repair and 
participating also in NHTSA's coordinated remedy program. The 
industry has also reached out to insurance companies, as Mitch 
just testified, asking for their help in notifying customers 
about open recalls.
    In January, automakers joined with the Department of 
Transportation to announce the Proactive Safety Principles. 
Under the principles, we are working with NHTSA to share best 
practices to improve recall completion rates and to examine 
ways to better identify potential safety risks earlier. 
Together we, the industry, policymakers, regulators, and safety 
advocates have made substantial progress over the last 50 years 
but we have much more to do. Innovation in the automated and 
connected vehicle space is already producing significant public 
benefits.
    There are two critical near-term priorities for federal 
regulators and policymakers to accelerate innovation and 
dramatically improve highway safety. First, the Federal 
Government needs to take leadership on vehicle automation. 
Federal policymakers have long recognized the public benefit of 
national motor vehicle safety standards that allow 
manufacturers to bring the latest advances in safety to 
consumers in all 50 states.
    A patchwork of local and state laws will almost certainly 
slow innovation. For instance, what happens when an automated 
vehicle meets the design criteria for one state but not 
another? Would the vehicle be banned from crossing the state 
line? The Federal Government, working closely with 
stakeholders, must quickly expand its leadership role to ensure 
the development of policies that foster, rather than inhibit 
innovation.
    Secondly, the Federal Government must help accelerate the 
game-changing benefits that will come with connected cars. 
Moving NHTSA's proposed vehicle-to-vehicle rule forward will 
create an interoperable standard so all cars can communicate 
with each other and the infrastructure to warn drivers of 
dangers and ultimately avoid crashes.
    After more than a decade of research and development and 
significant investment by both the public and private sectors, 
this technology is being tested on public roads and is ready 
for widespread deployment. Government support must ensure that 
both the vehicle standard is established and that access to the 
dedicated spectrum, free of harmful interference is maintained. 
With clear rules, innovation will flourish.
    Exciting developments in the automated and connected 
vehicle space are creating tremendous benefits, yet bring 
challenges that must be addressed. I believe that collaboration 
is the key to ensuring that the benefits of these technologies 
reach consumers. There is no one single approach to achieve 
this goal. So, let's work together to develop and use the right 
tools in the right way.
    Thank you for the opportunity to testify today and I look 
forward to your questions.
    [The prepared statement by Mr. Bozzella follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Burgess. The chair thanks the gentleman.
    The chair recognizes Mr. Wilson, 5 minutes for your opening 
statement, please.

                  STATEMENT OF MICHAEL WILSON

    Mr. Wilson. Chairman Burgess, Ranking Member Schakowsky, 
and members of the subcommittee, I appreciate the opportunity 
to testify before you today.
    My name is Michael Wilson and I am CEO of the Automotive 
Recyclers Association. The ARA is dedicated to the efficient 
removal and reutilization of genuine original equipment 
automotive parts. The ARA represents the interests of over 
4,500 professional automotive recyclers in the United States 
who each day sell over 500,000 recycled parts. These quality, 
recycled original equipment parts are designed by automobile 
manufacturers and built to meet their requirements for fit, 
finish, durability, reliability, and safety. These parts are 
often subsequently reutilized in the repair and service of 
vehicles and continue to operate as they were originally 
intended.
    I come before you today with appreciati on for the 
Congress, including a provision in FAST Act that provides the 
automotive recycling industry to OE parts data on all recalled 
automotive parts and to discuss the important steps that must 
be taken to implement the provision.
    While the language in the FAST Act does not provide for 
access to all parts data for every motor vehicle, as did the 
version that passed the full House on November 4th of last 
year, it does signify the importance of part numbers to enhance 
consumer safety.
    ARA applauds Administrator Rosekind's goal of 100 percent 
remedy rates for safety recalls and has had numerous 
discussions with the Administrator and NHTSA staff over the 
last several years. Since passage of the FAST Act, ARA has not 
had detailed conversations with NHTSA on this issue. However, 
we believe our previous outreach to NHTSA and the Congress has 
provided the Agency with significant insight into the data must 
be made available electronically to address consumer safety 
concerns.
    ARA's leadership and staff stand ready to provide the 
agency with assistance on the complexities of part 
identification in the recycled parts supply chain. Specific 
data requirements need to be addressed to ensure that the new 
law has the positive and effective outcomes as intended.
     In my comments, I will address three main issues that need 
to be addressed by NHTSA for successful implementation.
    First, the provision's purpose is to provide the recycling 
industry with the recall data necessary to specifically 
identify automobile manufacturers' defective parts in the 
automotive supply chain. As I testified before this 
Subcommittee last October, the data on part names, part 
descriptions and part numbers must be tied to specific VIN 
numbers for recyclers to be able to identify manufacturers' 
defective parts.
    The relationship between specific VINs and each vehicle 
manufacturer part number enables processing of the data with 
standard IT systems. It is only with access to specific VIN 
numbers tied to standardized parts information that the 
industry's commercial inventory management system providers and 
large independent operators have the ability to cost 
effectively develop software that can automatically identify 
manufacturers' defective recall parts that are in recyclers' 
inventories or identity the vehicles which contain recalled 
parts prior to purchase by recycler.
    However, with only VIN ranges, the industry would be 
limited to manually mapping each recall campaign, a process 
that one inventory management system provider has already 
attempted, only to determine that it is so time consuming that 
having to manually map up the thousands of manufacturer recalls 
using VIN ranges would bankrupt the company.
    Secondly, ARA maintains that no new government database 
needs to be developed because manufacturers are already 
required by statute to maintain publicly available lists of 
specific VINs of the vehicles involved in recall that are 
included in a quarterly report.
     Currently, the statute also requires that these reports 
continue to be available online through www.safercar.gov as 
part of the manufacturer's recall file. The current rule also 
requires manufacturers to submit their part 573 notification 
reports through NHTSA's internet Web site portal. Given that 
manufacturers already submit quarterly recall reports 
electronically to NHTSA, ARA believes that the process may only 
involve a modest technical correction to provide stakeholders 
timely access to data fields within these reports, which in 
turn would allow these parties to cross-check that information 
with the inventories of recyclers. However, providing these 
reports in a non-integratable format is unacceptable. NHTSA's 
implementing language must adopt parts identification methods 
that embrace advancements in information technology resulting 
in a state-of-the-art electronic processing methods based on 
the relationship between the VIN and part numbers. Vehicle 
manufacturers themselves use this VIN-OE number relationships 
in their own parts ordering systems. Automobile manufacturers' 
refusal to grant access to this precise parts identification 
method leads to a monopoly on critical safety information that 
puts consumers at risk and the entire independent replacement 
parts market at a disadvantage.
    It is no longer a matter of letting motor vehicle 
manufacturers decide whether it suits their business model to 
grant access to this data or not. It is a consumer safety 
concern that NHTSA must address.
    Lastly, it is important that NHTSA adequately address the 
scope of data that will be provided to the professional 
automotive recycling industry. To effectively address 
requirements under the TREAD Act as well as new requirements 
contained in the FAST Act that requires manufacturers to 
financially remedy their recall defects going back 15 years, 
automobile manufacturers must be required to provide this 
recalled parts data back to November 2000 to cover the 10,252 
recall campaigns over this time period.
    It is only through comprehensive access to both original 
equipment part numbers of recalled parts, tied to specific VINs 
that manufacturers and recyclers can come together to enhance 
overall motor vehicle safety; help improve recall remedy rates; 
and seek to effectively address the federal recall remedy 
requirements for used equipment enacted 15 years ago in the 
TREAD Act.
    I am thankful for the attention of the Congress in the 
oversight of this critical safety issue and I thank you for 
this opportunity to speak before you today.
    Thank you.
    [The prepared statement of Mr. Michael Wilson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Burgess. The chair thanks the gentleman.
    Ms. Gillian, you are recognized for 5 minutes for an 
opening statement, please.

                STATEMENT OF JACQUELINE GILLIAN

    Ms. Gillian. Thank you very much. Good morning, Chairman 
Burgess, Ranking Member Schakowsky, and members of the 
subcommittee.
    I am Jackie Gillian, President of Advocates for Highway and 
Auto Safety, a coalition of consumer health and safety and 
insurers working together to save lives by promoting adoption 
of highway and auto safety laws.
    I appreciate the opportunity to testify before you this 
morning.
    Although motor vehicle deaths are on the rise, the good 
news is that we have solutions at hand to reduce this death and 
injury toll. There is an unfinished and overdue safety agenda 
which needs attention and action by Congress and NHTSA. I would 
like to briefly highlight several needed improvements.
    The grim statistic about rising deaths comes at a time when 
Americans are also facing a record number of recalls for 
vehicle safety defects, which has been mentioned repeatedly 
this morning. The dangers posed by the record high number of 
recalls are exacerbated by the disturbingly low rate for 
completing repairs. However, the most effective and direct 
solution can be summed up in one word, prevention. The auto 
industry must identify safety problems sooner and take 
corrective action immediately.
    Millions of vehicles are under recall today, about one out 
of five registered vehicles because known safety defects were 
hidden for years from the public and from NHTSA. Now, consumers 
must bear the burden of driving defective vehicles, waiting 
months for replacement parts, and taking time to bring in their 
vehicles for repairs.
    Other necessary solutions are closing the loophole that 
permits dealers to sell used cars under recall, linking vehicle 
registration with repairing defects and providing NHTSA with 
imminent hazard authority to immediately stop the manufacturing 
of defective vehicles.
    Additionally, we commend the increased funding levels 
adopted in the FAST Act for NHTSA but it is still not enough to 
address the numerous challenges facing the agency. Insufficient 
resources will hamper NHTSA is available to ensure the safety 
of the car of today, as well as the safety of the car of 
tomorrow.
    One of the chronic problems facing NHTSA is timely 
completion of important rulemakings required by Congress. And I 
know there was focus on how well they were doing addressing the 
FAST Act requirements. There are many MAP-21 requirements that 
are overdue, some by more than a year. These include final 
rules due in 2014 to improve occupant protection in motor 
coaches for the roof strength and anti-ejection protection. In 
addition, motor coach fires are frequent, oftentimes fatal, and 
yet completely preventable. NHTSA has been ignoring repeatedly 
NTSB recommendations and their own research about strategies 
and rules that can be implemented to address fire prevention 
and that needs to change.
    Child occupant protection is another top priority. Again, 
NHTSA has delayed conducting rulemakings required by Congress 
that affect the safety of all of our children. For example, 
rules requiring seatbelt reminders and improving the LATCH 
system for proper child restraint installation were due last 
October and still haven't been issued.
    Also, as you mentioned Chairman Burgess, millions of 
children riding in the back seat are needlessly at risk but 
there are solutions available. There is no need for a child to 
tragically die from hyperthermia or hypothermia when 
inadvertently left behind in a vehicle or because the seat back 
fails in a crash and kills or seriously injures a child sitting 
behind a front seat passenger.
    It is time for NHTSA to issue rules requiring technology to 
alert adults to unattended children left in a car and to update 
the seat back strength standard, which was issued in 1967.
    Unfortunately, the FAST Act did not adopt important safety 
solutions that are still needed and contained in the Vehicle 
Safety Improvement Act of 2015. These include removing the cap 
on civil penalties, prohibiting regional recalls, upgrading 
early warning reporting requirements, and improving pedestrian 
safety.
    Advocates also believe that the advent of driverless cars 
in the future holds great promise to advance safety. However, 
federal oversight, minimum performance standards, as well as 
transparent and verified data are essential in the process. 
Consumers should not be guinea pigs in this experiment and 
NHTSA cannot be a passive spectator.
    Fifty years ago, Congress passed and President Johnson 
signed into law the National Traffic and Motor Vehicle Safety 
Act of 1966 to protect the public against, and this is quoted 
from the law, unreasonable risk of accidents occurring because 
of the design, construction, or performance of motor vehicles. 
The underlying principles of this prescient 50-year-old law 
have not changed. But in order for the agency to fulfill its 
statutory mission, NHTSA needs sufficient resources and a 
strong resolve to use its regulatory and enforcement 
authorities to protect the public.
    Thank you very much.
    [The prepared statement of Ms. Gillian follows:]
    [[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Burgess. The chair thanks the gentlelady. And the chair 
apologizes. I mispronounced your name, Ms. Gillian. And I had a 
phonetic spelling in front of me, which I followed and I should 
have done what I knew was correct.
    Ms. Gillian. Well, no need to worry. When I was reviewing 
my statement right before I sent it over, my staff had 
misspelled my name. So, you are in good company.
    Mr. Burgess. Ms. Wilson, you are recognized for 5 minutes 
for your opening statement, please.

                    STATEMENT OF ANN WILSON

    Ms. Wilson. Thank you. Chairman Burgess, Ranking Member 
Schakowsky, members of the subcommittee, my name is Ann Wilson. 
I serve as the Senior Vice President of Government Affairs for 
the Motor and Equipment Manufacturers Association.
    Thank you for the invitation to testify before you today on 
the implementation of provisions in the FAST Act.
    MEMA represents vehicle suppliers that manufacture and 
remanufacture components and systems for use in passenger cars 
and heavy trucks. Our members develop and manufacture original 
equipment to new vehicles, as well as aftermarket parts to 
service, maintain, and repair the over 256 million vehicles 
that are on the road today. Suppliers are the largest employer 
of manufacturing jobs in the United States, directly employing 
over 700,000 Americans with a total employment impact of 3.6 
million jobs.
    Our members lead the way in developing advanced, 
transformative technologies that enable safer, smarter, and 
more efficient vehicles, all within a rapidly growing global 
marketplace. Ultimately, about two-thirds of the value of 
today's vehicles comes from suppliers. Suppliers work closely 
with vehicle manufacturers to provide cutting edge, innovative 
systems and components for new vehicles.
    Today, I wanted to focus on the real benefits that advanced 
safety technology can provide to motor vehicle safety. There 
are many advanced safety features available in the vehicle 
marketplace ranging from passive to active systems that either 
warn, aid, and/or assist a driver and to avoid or mitigate 
vehicle crashes. These crash avoidance and mitigation 
technologies combined with decades of improved crash worthiness 
features provide the opportunity for significant overall 
reduction of fatalities, injuries, and property damage claims 
in the United States.
    In 2015, MEMA and the Boston consulting group released a 
report exploring the safety benefits to some of these systems, 
known collectively as advanced driver assistance systems or 
ADAS. Last year, MEMA testified before this subcommittee that 
ADAS technologies can provide immediate safety benefits and 
form the pathway to a partially and fully automated vehicle 
fleet that could virtually eliminate traffic fatalities. The 
study found that a suite of ADAS technologies has the potential 
to prevent as many as 30 percent of all crashes, a total of 
10,000 lives--10,000 lives saved annually.
    However, relatively few vehicles on the road today have 
ADAS technologies and the market penetration is only growing at 
about two to five percent annually. Since driver error is, by 
far, the leading factor in motor vehicle crashes, the lack of 
widespread adoption of these technologies in the U.S. is a 
significant missed opportunity. Congress recognized the 
importance of these technologies with enactment of the FAST Act 
and the direction to NHTSA to include crash avoidance 
technologies in NHTSA's New Car Assessment Program.
    Shortly after passage, as Dr. Rosekind testified, NHTSA 
announced its envisioned upgrades to NCAP beginning with model 
year 2019 vehicles. The purpose of this enhancement is to 
expand the program beyond crash worthiness by including for the 
first time crash avoidance and mitigation technologies and 
pedestrian safety.
    MEMA commends Congress and NHTSA for taking this major 
stride to enhance and expand the NCAP categories and ratings. 
Collaboration between government, vehicle manufacturers, 
suppliers, safety advocates, and other stakeholders is key to 
the success of a significant evolution in the program. Even 
though NCAP is a voluntary, non-regulatory program, it has a 
substantial and direct impact on how automakers and suppliers 
design future vehicles and plan for emerging technologies. In 
addition, NCAP provides that all-important link of information 
to the consumer.
    There are a variety of other tactics that can be utilized 
by policymakers in industry to achieve the overarching goal of 
reducing crashes. MEMA supports the volunteer agreement between 
the automakers and NHTSA to make automatic emergency braking 
technology standard equipment in almost light duty vehicles by 
the year 2022.
    Additionally, MEMA strongly believes another key element to 
the expansion of ADAS technologies is the development of future 
regulations with our global counterparts, most notably, the 
European Union.
    These efforts do not equate to a lower standard of safety. 
Rather, a strong harmonized system can provide an opportunity 
to address new safety technologies in a transparent and 
efficient manner.
    Members of MEMA are committed to motor vehicle safety. As 
industry moves forward with increased collaboration with 
regulators, we believe that NHTSA's use of NCAP program, 
voluntary agreements, and rulemaking has the potential to 
address many of our current challenges.
    MEMA also urges the agency to actively engage in the 
harmonization of new regulations that could speed completion of 
testing standards and regulations.
    We applaud this committee's commitment to motor vehicle 
safety by updating the NCAP program and providing greater 
access to safety technology.
    I would be happy to answer any questions.
    [The prepared statement of Ms. Ann Wilson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Burgess. The chair thanks the gentlelady.
    And I thank you all for your testimony and we will now move 
into the question portion of the hearing and I would like to 
yield the first 5 minutes to the vice-chair of the 
subcommittee, Mr. Lance, for your questions, please.
    Mr. Lance. Thank you, Mr. Chairman. And good morning and 
almost afternoon to you all.
    Ms. Gillian, I believe I heard you say that fatalities are 
increasing. Is that right?
    Ms. Gillian. Yes, they are.
    Mr. Lance. Could you explain that, pleas?
    Ms. Gillian. NHTSA recently released data showing that 
comparing the first three quarters of 2014 with the first three 
quarters of 2015, that there has been over a nine percent 
increase in motor vehicle fatalities. And that increase 
actually represents one of the largest jumps that we have seen 
in the last 30 to 40 years. And so it is really significant and 
that is the reason we need to focus on what are those programs 
and strategies that can help turn that around.
    Mr. Lance. Mr. Bainwol, would you like to comment on that? 
Because I am looking at your chart now and I see your chart 
goes to 2014.
    Mr. Bainwol. Right and that is because there are not 
official numbers yet for 2015. But we do know that the 
aggregate number has risen and it has risen beyond vehicle 
miles traveled. So, there is a delta there that is disconnected 
from the amount of travel and that is very, very concerning.
    What we don't know is the cause. There are some clues. We 
won't really be able to know until the full data set comes out. 
For instance, is this from motorcyclists? Is it pedestrians? Is 
it passengers? Is it drivers? We just don't know.
    We have seen some early clue. There was a story I saw a 
couple of weeks ago comparing one state, in Wisconsin, 
pedestrian, motorcyclist, others and there was a spike in 
pedestrian. There was a spike in motorcyclists. But we won't 
know until the full data set comes out.
    It is concerning but I would make one other, I think, 
crucial point. And that is if we lived in a zero defect world, 
99 percent of the fatalities that we are addressing still 
exist. So, the question here is that doesn't mean we shouldn't 
cope with the one percent, we should get that right. Recall 
policy is vitally important and we are totally committed to 
making sure we get it right. But we also have to find a way to 
deal with the preponderance of the problem, the 99 percent. And 
the good news that we have been talking about in this panel is 
that technology brings that possibility, the ability to avoid 
accidents will save thousands of lives. And the faster we can 
lean forward and implement that technology, the better off we 
are going to be.
    Mr. Lance. According to your chart, in 2014 of the 32,675 
fatalities, 1,196, as I understand your chart, were related to 
vehicle factors. Am I reading that chart accurately?
    Mr. Bainwol. Correct. And factors represents two things, 
one are defects, and one is maintenance. So, if you have an 
improperly inflated tire, that is a maintenance issue and not a 
defect issue.
    Mr. Lance. And I am sure this is still a matter of 
speculation but could the increased fatalities, as Ms. Gillian 
has indicated, and I will ask Ms. Gillian as well, could they 
be based upon factors such as texting, for example?
    Mr. Bainwol. So, I will give you an anecdotal response not 
a scientific response but, yes.
    Every day I drive to work. It takes me about an hour to get 
to work. And as I focus on my driving task, I also look to see 
what the other guy is doing. And I see lots of folks looking 
down at their phones. So, there is no question there is a 
texting problem, both in the car and, ironically, with 
pedestrians. If you watch people cross streets, more often than 
not, they are like this.
    Mr. Lance. I see a texting problem in the hallways of 
Congress.
    Mr. Bainwol. But not one on this panel.
    Mr. Lance. No, it involves people a generation younger than 
you or I who are bumping into me as they are texting and not 
looking where they are going.
    Ms. Gillian, if you would like to respond to my series of 
questions.
    Ms. Gillian. Yes, I very much would like to.
    We need to really attack this problem, both looking at 
getting the--improving the behavior of the driver. Advocates is 
very active. In fact, we just put out this report, Missing in 
Action, on the need for states to step up and pass texting 
laws, tougher drunk driving laws, child restraint laws.
    Mr. Lance. Yes.
    Ms. Gillian. However, the other part of the equation is 
also the issue of driving safer cars. And many years ago, the 
former president of MADD said to me, you know, Jackie, the best 
defense against a drunk driver is a safe car.
    So, you really need to attack both. And the problem is with 
all these recalls is that we have seen that people are not 
taking them in. You are getting two or three notices and then 
we have these deaths like the 17-year-old teenager in a low-
speed crash.
    Mr. Lance. Thank you. My time is expiring. Thank you, Mr. 
Chairman.
    Mr. Burgess. The chair thanks the gentleman.
    The chair recognizes the gentlelady from Illinois, Ms. 
Schakowsky, 5 minutes for questions.
    Ms. Schakowsky. Thank you, Mr. Chairman.
    Ms. Gillian, members of--no, no. In February--I wanted to 
preface this question--the Center for Auto Safety filed a 
lawsuit against DOT alleging that DOT's failure to publish 
Technical Service Bulletins or TSBs online----
    Ms. Gillian. I am sorry. I am having a hard time hearing 
you.
    Ms. Schakowsky. OK, let me try again.
    Ms. Gillian. OK.
    Ms. Schakowsky. All right. In February, the Center for Auto 
Safety filed a lawsuit against DOT alleging that DOT's failure 
to publish Technical Service Bulletins or TSBs online was a 
violation of MAP-21.
    On March 25th, DOT issued a Federal Register notice saying 
that it would begin posting all TSBs online. Conveniently, TSBs 
started appearing yesterday on DOT's Web site.
    So, here is my question. Members of this committee drafted 
and pushed hard for the TSB publication provision in MAP-21. 
And I know this might sound rhetorical but should it have taken 
a lawsuit for DOT to start posting that information? And is 
this a pattern we should worry about?
    Ms. Gillian. Yes, and there is an issue, an example even 
closer to home, Representative Schakowsky----
    Ms. Schakowsky. OK.
    Ms. Gillian [continuing]. And that is rearview cameras. 
That is also an issue where finally in 2008 we got legislation 
passed requiring rearview cameras as standard equipment. They 
will become standard equipment in 2018. Because of your 
legislation and your tenacious advocacy in the work that safety 
groups did, we ended up having to file a lawsuit to finally 
spring that rule free from OMB and the agency.
    So, we are kind of faced with all of these roadblocks. We 
can't get the agency to issue the rules. I have given examples 
in my testimony. Then, when they are, they delay the deadlines. 
And then finally, we have to resort to litigation.
    And public interest groups, Public Citizen handled the 
case, both those cases for us but it really is unnecessary for 
these very common sense and important rules and regulations 
that consumers want.
    Ms. Schakowsky. And let me point out in terms of the rear 
visibility, that law actually passed in 2008. And so finally, 
in 2018, we will see that standard.
    So, I wanted to ask you, you talked quite a bit about 
recalls, as you said 2015 was another record-setting year for 
recalls, more than 51 million vehicles were recalled. Again, 
for Ms. Gillian.
    Dr. Rosekind has said publicly that NHTSA's diligence in 
pursuing automakers for safety defects is part of why recalls 
have gone up, rather than just an increase in the number of 
defects. Perhaps that is partly the case. Some have suggested 
that because of the recent high profile recalls the industry is 
more willing to go to recall faster to get ahead of the story.
    What, in your view, is causing the rise in recalls and do 
you agree with Dr. Rosenkind's assessment?
    Ms. Gillian. Well I think, as I said in my testimony, we 
supported legislation which removed the cap no civil penalties. 
We supported criminal penalties.
    I mean I think that you had GM, Takata, and VW feeling that 
they could ignore the law and produce cars that were faced with 
these defects and pretty much just face a fine that is a slap 
on the wrist is contributing to the problem.
    And I think that while you know I support what NHTSA is 
doing in trying to accelerate the consumers repairing their 
vehicles, I mean I think that we need a tough cop on the beat 
and I think that we need NHTSA--a lot of the issues we finally 
got Technical Service Bulletins published.
    There is still an issue with that agency on transparency. I 
just heard from one of my Board members, Standard for Auto 
Safety that is still trying to get documents out of them. It is 
still a very difficult and cumbersome process for consumers to 
get that information.
    And I will tell you, if you look back on those three 
examples, GM, Takata, and VW, consumer groups played a big role 
in exposing those problems. And so you know that is the 
importance of having this information available so that we can 
also be a check on what is going on.
    Ms. Schakowsky. And thank you for that.
    A number of people brought up today in January NHTSA 
announced a voluntary agreement with 18 automakers called the 
Proactive Safety Principles. Do you expect that agreement to 
have an effect on recall rates?
    Ms. Gillian. Well, I will make that a short answer. No, 
because voluntary standards are rife with deficiencies. They 
are unenforceable. When a consumer goes in the showroom, they 
don't know whether that car is meeting that standard. They are 
done in secret without any public input or from other state, 
and typically, they result in the lowest common denominator of 
industry practice and discourage innovation.
    Ms. Schakowsky. My time is up. So, we will leave it at 
that. Thank you very much.
    Ms. Gillian. Thank you.
    Mr. Burgess. The chair thanks the gentlelady. The 
gentlelady yields back.
    The chair recognizes the gentleman from Texas, Mr. Olson, 5 
minutes for questions, please.
    Mr. Olson. I thank my good friend, our chairman. Welcome to 
all of our witnesses. I do not intend to ask any questions. I 
want to deliver a plea from home.
    On March 31st, 2 weeks ago today, Huma Hanif left George 
Ranch High School to head to her home. As she turned onto her 
street in her neighborhood, she tapped a car in front of her, a 
minor fender bender. Her airbag deployed with an explosion and 
sent a small piece of shrapnel the size of this nickel into her 
neck. She died in her own car with her seatbelt still on. She 
was 17 years old. Here is a photo of the accident scene.
    I drove to see where Huma died for myself. It was so close 
to my home. Eight turns, through seven traffic lights, and 
three stop signs and I was there. It was hard to believe a 
young girl could die right there in such a minor collision.
    I know that we have made a lot of progress in getting 
recalled cars in for repair. Right now about 70 percent. I have 
been told 70 percent. That is great but I also know and I worry 
about another Huma being out there.
    I know that we can't quit at 70 percent. The only 
acceptable number is 100 percent of recalled cars repaired with 
a defect like that. I wish I could tell you how to achieve 
this. I can't. But I know that working together we can achieve 
our goals. And that starts by acting on the plea I promised at 
the start of my comments. It comes from Huma's brother, Faizan. 
It is a short video.
    [Video shown.]
    Mr. Olson. That is Sheriff Troy Nehls. That is Faizan 
there, the brother.
    You can hear my voice. Your ears are working fine. The 
machine is not working properly right now. I am not saying 
anything. No comments.
    That is the airbag that was deployed. That is the part that 
was lodged in her neck right there, about the size of a nickel.
    That works.
    Get out there and make sure people know if they drive a 
vehicle in America, log on to safercar.gov. Check out the car 
online. Make sure you don't drive a defective car. If you do, 
get that car fixed. Let's make sure another Huma will never 
happen again.
    I yield back.
    Mr. Burgess. The chair thanks the gentleman.
    The chair would note that he deferred his questions for 
other committee members. And I will now yield myself 5 minutes 
for questions.
    So, OK, given what we have just seen--and I guess this is a 
question for you, Mr. Bainwol, perhaps you, Mr. Bozzella. And 
Mr. Bainwol, I am going to refer to the slide set that you gave 
us. And when you look down at the bottom corner with the stuff 
that was hard to read, the fatality percentage was 75 percent 
in cars that were older than 10 years, older than 2005. And 
that is 46 percent of the fleet.
    And that is the challenge because then if you look at some 
of the stuff that Mr. Rosekind had provided to us, the 
compliance with recall notices in that age set of cars that is 
older than 10 years is 15 percent. So, we have got a disconnect 
there.
    Now you said something, either Mr. Bainwol or Mr. Bozzella, 
that really intrigued me in your testimony because you talked 
about working with insurance companies. And I actually tried to 
call up my insurance card on my iPhone. I couldn't do it 
because I forgot my challenge question. But that is a separate 
issue. But your insurance company has your vehicle 
identification number, when you get your renewal on your 
insurance.
    And one of you mentioned partnering or getting insurance 
companies involved in this and to help with this. There is 
actually an opportunity. They have the data. And maybe we can 
talk to Mr. Rosekind about the larger data sets being able to 
go through more easily but that seems like a fix. And I know my 
insurance company that advertises heavily on TV and says 15 
minutes could save you 15 percent or more, everybody knows 
that. Boy, 15 minutes could save your life or your daughter's 
life. I mean that is pretty important stuff.
    So, what can we do to engage our state DMVs and your 
insurance companies? There is a way to get this data 
transferred and get these cars in and fixed. Is there not?
    Mr. Bainwol. The short answer is yes. We want to see every 
car fixed. We are desperately trying to communicate with car 
owners to move them to comply with the recall but we clearly 
have a problem doing that. And the older the car, the more 
difficult that challenge is.
    So, what that means is, it is an all hands on deck 
proposition. We are not trying to shift the burden. WE are 
trying to bring other people to the party to help get the job 
done.
    And it strikes us that DMV and the insurance world are the 
touchpoints that consumers engage with and you talk about the 
health of the vehicle at that point. And so they are a 
perfectly natural place to go to augment our efforts. They also 
have better data. So, we have custody of the name when we sell 
a new car but oftentimes with a car that is 10 or 11 years old, 
it is going to be sold multiple times, sometimes by private 
parties. And so the custody, the trail goes cold. And so the 
trail is hotter with DMV and with the insurance companies. And 
so we turn to everybody in the ecosystem to say help.
    Mr. Burgess. Well it seems like there is some opportunities 
there. And the insurance, when you have mentioned an insurance 
company, that kind of leapt off the page I think because they 
had your VIN number. I mean it is on your card. You have the 
card. You have to buy it. The state requires you to buy it to 
drive on their streets.
    I appreciate the efforts that the automobile manufacturers 
have made. I know I have seen full page adds in the Dallas 
Morning News on several occasions, I think last summer when Dr. 
Rosekind increased the recall notice.
    I don't doubt that the manufacturers have a very vested 
interest in getting a defective car back and getting it fixed. 
They don't want their customers put at risk. But there are 
other people, as you describe it in the ecosystem. The 
insurance company has that vehicle identification number and it 
is touched once or twice a year. People go in for an oil change 
two or three times a year. And then, of course, in my state, we 
have to go get a state inspection and comply with all kinds of 
things. That is another opportunity.
    I like your statement of an every hands on--all hands on 
deck proposition.
    Let me just ask you because this came up in an interview I 
was doing this morning with one of my local television 
stations. And they said they had a viewer who had received a 
recall notice and was trying to get her car fixed and there was 
no part available. How would you address that viewer? What can 
we tell her?
    Mr. Bozzella. It is a very important question, Mr. 
Chairman. And first, the customer should call the manufacturer. 
It is very important that the customer call the manufacturer 
and explain the situation, the vehicle, the VIN and listen to 
the advice and counsel of the company that will tell them what 
the parts availability situation is.
    The customer should also reach out to the dealer and get 
additional information about how the dealer is handling parts 
flow into the dealership and the repair.
    I think these are really very, very important questions but 
I would start very much with calling the manufacturer and 
asking what that specific manufacturer's situation is.
    Mr. Burgess. So, here is the real world situation. It is 
the third or fourth owner. They didn't buy it from a dealer but 
they know what the make of the automobile is. So, go to a Web 
site and get an 800 number? What are the practical steps that 
that person--they took it to a garage. They said we would like 
to help you but we can't get that right now, they are on back 
order. That person should call the dealer--not the dealer but 
the manufacturer at an 800 number they can find on internet 
down at their library if they don't have access to a computer?
    Mr. Bozzella. That is correct. They can find the 800 
number. They can go to the Web site. You will many 
manufacturers have information on the Web sites specifically 
related to an open recall. So, there is important information 
both at the Web site and on caller assistance lines and 
consumer assistance lines. And I think this is very important 
in addition to going to safercar.gov.
    Mr. Burgess. Well, I have gone way over time but I do want 
to ask one additional question because we dealt with a problem 
with an ignition switch a year, year and a half ago, 2 years 
ago. Now, we don't hear about that any longer. Is that we don't 
hear about it because the problem has been fixed and everyone 
has brought their cars in and gotten the recall taken care of 
on the key that was switching off on the ignition or why is it 
that we are not hearing any longer about those defects? Are 
they all done? Are we at 100 percent compliance?
    Mr. Bainwol. I don't know what the actual compliance rate 
is but we will check it and come back to you.
    Mr. Burgess. I appreciate that.
    I am going to yield back to myself and recognize Mr. 
Guthrie from Kentucky for 5 minutes.
    Mr. Guthrie. Thank you, Mr. Chairman, for calling this 
committee and thank you, everybody, for being here.
    My first questions are on cybersecurity. And Mr. Bainwol, 
Mr. Bozzella, could you provide information--you brought an 
update on the Auto ISAC Information Sharing and Analysis 
Center. How much information sharing is occurring between 
members of the Auto ISAC? And have any vulnerabilities been 
uncovered that were not previously known to certain ISAC 
members through the information sharing?
    Mr. Bainwol. I will go first. So, the ISAC is up and 
running. It was stood up by the end of last year. So, the 
portal is working.
    There is an exchange, at thread information. We have also 
brought on--begun the process of bringing in suppliers. NHTSA 
has been briefed.
    So, we are making progress. We are also involved in a best 
practices effort, where the framework has already been 
established. And we will be rolling it out in more detail by 
the summer.
    As Dr. Rosekind mentioned, there has never been a market 
cyber-attack just yet but we know it is coming and we are the 
first industry to get ahead of the curve, to establish and ISAC 
before an event actually occurs.
    Mr. Guthrie. Thanks. Anything to add to that?
    So, I will ask another question on that. Should cyber 
vulnerabilities in vehicles be approached differently in terms 
of the recall response from the agency and reporting 
requirements from automakers than traditional safety defects 
found in the motor vehicles?
    Mr. Bozzella. It is an important question. When is a 
vulnerability a defect and when is it not a defect? This is a 
question that the agency is currently reviewing. It is a 
conversation that we are having within the ISAC discussion 
among the automotive associations. And it really does speak to 
why it is so important that we extend the cybersecurity best 
practices framework that we have already announced and start to 
build out those cyber best practices. It is critical that we 
design cyber security and that we think about it, not only 
think about it but act on it throughout the design process, 
throughout the manufacturing process and throughout the 
ownership process.
    Mr. Guthrie. Should dealing with cyber issues be treated 
within the recall system like safety defects? The system we 
have today, should cyber issues be treated similarly or should 
there be a separate way to deal with that?
    Mr. Bozzella. I think the short answer is it depends on the 
circumstances. A vulnerability is not by definition a defect.
    Mr. Guthrie. Right.
    Mr. Bozzella. So, I think you have to start there. And then 
the question is what is it that we are addressing with regard 
to the systems in the vehicle and perhaps more broadly.
    But a vulnerability is not, itself, an indication of a 
defect.
    Mr. Guthrie. I guess you have to say everything is 
vulnerable to some degree, hopefully a very limited degree but 
everything would be somewhat vulnerable, I guess.
    Mr. Bainwol. When you slash a tire on a car, the tire, 
itself is not defective. It is a malicious act. And so we think 
that to some extend that does apply.
    I think it is also important just to--Dr. Rosekind made the 
point earlier today that the cybersecurity issue requires 
nimbleness. And one of the topics of discussion, not to open up 
a can of worms but to go ahead and maybe go there a bit is how 
do you manage change in a world in which technology and 
innovation is happening very quickly.
    And what Dr. Rosekind was saying was regulation does not 
necessarily work fast enough to deal with the rate of 
innovation. And so that is a very, very important point and 
certainly is true in the cyber case.
    Mr. Guthrie. A quick question. I am going to turn to 
Proactive Safety Principles and stick with you two for a 
second.
    What is the timing for implementation of each of these 
Proactive Safety Principles? And are you or member companies 
having regular meetings with NHTSA to coordinate the 
implementation of the principles?
    Mr. Bozzella. We are working as associations to coordinate 
the process. That coordination is already taking place and we 
are in communication with NHTSA right now, as a matter of fact, 
at the level of engagement with the administrator directly and 
then more broadly.
    Mr. Guthrie. OK, I will go ahead and go to Mrs. Wilson. How 
will the Proactive Safety Principles be reflected in the work 
suppliers do with automakers or in the aftermarket context?
    Ms. Wilson. Well, we have been asked by NHTSA and we are 
now currently drafting our own principles that are--we have a 
thousand members. So, it is going to take it a little bit 
longer to review them. And obviously, we want to reflect both 
the responsibilities that our OE suppliers have with vehicle 
manufacturers but also the impact of the aftermarket.
    Mr. Guthrie. OK, thank you.
    Ms. Wilson. We support the principles that were laid out 
but, obviously, we feel like there is some other initiatives 
that we think that are important for us to also address.
    Mr. Guthrie. I just have a couple of seconds. So, Mr. 
Wilson, how would it affect auto recyclers, the Safety 
Principles?
    Mr. Wilson. I think on the automotive recycler side, I 
would sort of lump us in to independent operators within that 
$300 billion aftermarket space. And again, to make sure that 
cybersecurity is protected.
    You have other issues, security issues with vehicles that 
the amount of folks that are able to work on those vehicles is 
very, very limited based on those security concerns. And so we 
have got to find a way to make sure that the independent 
operators out there can work in that space, that they are not 
blacklisted from working on that.
    And I think the European Union has put in some good 
language to work on that.
    Mr. Guthrie. Well, thank you. It is the chairman's time 
now. I don't know if you want to give her a chance. Do you want 
her to respond? If the chairman allows.
    Mr. Burgess. Proceed.
    Ms. Wilson. Just one quick thing on the aftermarket, the 
cybersecurity. There is some real work going on within the 
industry. We talked about how we are training mechanics and 
training folks who are going to service the vehicles and so the 
consumer would know when you take a vehicle to auto repair 
shop, that they are dealing with someone who knows how to deal 
with security issues.
    Mr. Guthrie. OK. If the chairman allows.
    Ms. Gillian. Could I just add one thing? I know that Mr. 
Bainwol talked about voluntary standards. And on cybersecurity, 
I think that is a really strong case where we don't want 
voluntary standards because voluntary means just that. You 
don't have to abide by them.
    And I think as we enter this brave new world of driverless 
cars and the fear of cybersecurity problems, that that is when 
we really need an agency like NHTSA setting those minimum 
standards, so that everybody is playing by the same rules and 
that consumers can be confident that these are not something 
that one automaker decides to abide by and the other ones say 
well, it is kind of expensive, we don't want to do this.
    Mr. Guthrie. Well, thank you. My time is way over and so I 
appreciate the chairman's indulgence and your answers. Thank 
you.
    Mr. Burgess. The gentleman's time has expired.
    Seeing no other members wishing to ask questions, the chair 
would inquire of the gentlelady from Illinois if she has 
concluded questioning her thought?
    Ms. Schakowsky. I do not and I need to go.
    Mr. Burgess. The gentlelady needs to go.
    So, and it came up, Mr. Bainwol, Mr. Bozzella, and with 
you, Mr. Wilson, the all hands on deck nature of this. And we 
heard the very emotional testimony from Mr. Olson, who has now 
lost two constituents to an airbag rupture. And it is 
important. We have a role. You have a role. Perhaps we can 
enlist help from insurance companies and state DMVs.
    But let me just once again stress, moms and dads, brothers 
and sisters, you have a role. And this data is easily 
accessible to you. The lower left hand of your windshield is 
your vehicle identification number, just inside the driver's 
side doorpost, behind as you get in and out of the car on the 
driver's side. Safercar.gov. Safe with an R car.gov and you can 
query the database. Any time you take your car in for service, 
you would ask the dealer have you queried the database.
    This data will change. It is not static. We heard this 
morning about another 30,000 cars that have been added for a 
recall. So, the database, you can't just check it the first of 
the year and be done with it. You need to check from time to 
time. Perhaps an appropriate interval is when you take your car 
in for service. But this has been, obviously a very important 
hearing and I do want to thank all of our witnesses for being 
here today.
    Before I conclude, I would like to submit the following 
documents for the record by unanimous consent: a letter from 
RMA, a letter from PCI, a letter to the National Automobile 
Dealers Association.
    [The information appears at the conclusion of the hearing.]
    Mr. Burgess. Pursuant to committee rules, I remind members 
they have 10 business days to submit additional questions for 
the record.
    Oh, and I forgot. I will have a question dealing with the 
event data recorders that are in automobiles. And as to the 
ownership of that data, who has title to that information? This 
actually came up when we did the uncommanded acceleration 
hearings several years ago. Who owns the data in the electronic 
data recorders? And I will submit that for the record.
    Ms. Schakowsky. I have one as well, if I could request.
    Mr. Burgess. Sure.
    Ms. Schakowsky. I would like to submit for the record the 
letter that we received from Mrs. Houck and Mr. Brangman. Did 
you already do that?
    Mr. Burgess. Yes, I did.
    Ms. Schakowsky. Oh, I am sorry. Thank you.
    Mr. Burgess. I ask witnesses to submit their responses to 
written questions within 10 business days upon receipt of the 
questions.
    It has been a good hearing. I think we have learned a lot. 
I think we all recognize that there is still a lot to do and I 
encourage people to check the NHTSA Web site. It is extremely 
important.
    With that, the subcommittee is adjourned.
    [Whereupon, at 12:34 p.m., the subcommittees were 
adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
